<html>
<title> - AGROTERRORISM'S PERFECT STORM: WHERE HUMAN ANIMAL DISEASE COLLIDE</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
   AGROTERRORISM'S PERFECT STORM: WHERE HUMAN ANIMAL DISEASE COLLIDE

=======================================================================

                                HEARING

                               before the

      SUBCOMMITTEE ON PREVENTION OF NUCLEAR AND BIOLOGICAL ATTACK

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 21, 2006

                               __________

                           Serial No. 109-97

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________

                     U.S. GOVERNMENT PRINTING OFFICE

35-566 PDF                 WASHINGTON DC:  2006
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001



                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman

Don Young, Alaska                    Bennie G. Thompson, Mississippi
Lamar S. Smith, Texas                Loretta Sanchez, California
Curt Weldon, Pennsylvania            Edward J. Markey, Massachusetts
Christopher Shays, Connecticut       Norman D. Dicks, Washington
John Linder, Georgia                 Jane Harman, California
Mark E. Souder, Indiana              Peter A. DeFazio, Oregon
Tom Davis, Virginia                  Nita M. Lowey, New York
Daniel E. Lungren, California        Eleanor Holmes Norton, District of 
Jim Gibbons, Nevada                  Columbia
Rob Simmons, Connecticut             Zoe Lofgren, California
Mike Rogers, Alabama                 Sheila Jackson-Lee, Texas
Stevan Pearce, New Mexico            Bill Pascrell, Jr., New Jersey
Katherine Harris, Florida            Donna M. Christensen, U.S. Virgin 
Bobby Jindal, Louisiana              Islands
Dave G. Reichert, Washington         Bob Etheridge, North Carolina
Michael McCaul, Texas                James R. Langevin, Rhode Island
Charlie Dent, Pennsylvania           Kendrick B. Meek, Florida
Ginny Brown-Waite, Florida

                                 ______

      SUBCOMMITTEE ON PREVENTION OF NUCLEAR AND BIOLOGICAL ATTACK

                     John Linder, Georgia, Chairman

Don Young, Alaska                    James R. Langevin, Rhode Island
Christopher Shays, Connecticut       EdwarD J. Markey, Massachusetts
Daniel E. Lungren, California        Norman D. Dicks, Washington
Jim Gibbons, Nevada                  Jane Harman, California
Rob Simmons, Connecticut             Eleanor Holmes Norton, District of 
Bobby Jindal, Louisiana              Columbia
Charlie Dent, Pennsylvania           Donna M. Christensen, U.S. Virgin 
Peter T. King, New York (Ex          Islands
Officio)                             Bennie G. Thompson, Mississippi 
                                     (Ex Officio)


                                  (II)










                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable John Linder, a Representative in Congress from the 
  State of Georgia, and Chairman, Subcommittee on Prevention of 
  Nuclear and Biological Attack..................................     1
The Honorable Charlie Norwood, a Representative in Congress from 
  the State of Georgia...........................................     3
The Honorable David Scott, a Representative in Congress from the 
  State of Georgia...............................................    23
The Honorable John Barrow, a Representative in Congress from the 
  State of Georgia...............................................     4

                               Witnesses

Dr. Lonnie King, Senior Veterinarian, Centers for Disease Control 
  and Prevention, U.S. Department of Health and Human Services:
  Oral Statement.................................................    14
  Prepared Statement.............................................    16
Dr Edward Knipling, Administrator, Agricultural Research Service, 
  U.S. Department of Agriculture:
  Oral Statement.................................................     6
  Prepared Statement.............................................     9
Dr. Jeff Runge,Chief Medical Officer, U.S. Department of Homeland 
  Security:
  Oral Statement.................................................    12

                                Panel II

Mr. Gary Black, Member, Georgia Rural Development Council, State 
  of Georgia:
  Oral Statement.................................................    40
Dr. Corrie Brown, Josiah Meigs Distinguished Teaching Professor, 
  School of Veterinary Medicine, University of Georgia:
  Oral Statement.................................................    31
  Prepared Statement.............................................    33
Dr Paul Williams, special Assistant, Office of Homeland Security, 
  State of Georgia:
  Oral Statement.................................................    37
  Prepared Statement.............................................    39


 AGROTERRORISM'S PERFECT STORM: WHERE HUMAN AND ANIMAL DISEASE COLLIDE

                              ----------                              
Thursday, August 24, 2006




                          House of Representatives,
                    Committee on Homeland Security,
      Subcommittee on Prevention of Nuclear and Biological 
                                                    Attack,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 1:05 p.m., in 
the Hugh Masters Hall, Center for Continuing Education, 1197 
Lumpkin Street, Athens, Georgia, Hon. John Linder [Chairman of 
the Subcommittee] presiding.
    Present: Representatives Linder, Norwood, Scott and Barrow.
    Mr. Linder. The Committee on Homeland Security, 
Subcommittee on Prevention of Nuclear and Biological Attack 
will come to order.
    I would like to ask for unanimous consent the members of 
the Georgia delegation with us today to join in this hearing. 
Without objection, so ordered.
    The Subcommittee is meeting today to hear testimony on 
agroterrorism.
    I want to thank our distinguished panel of witnesses for 
traveling here today, as well as the University of Georgia for 
graciously hosting this hearing.
    The potential impact of an agroterrorist attack on animal 
health, the agricultural community and the economy at large is 
frightening to comprehend. An attack on our food supply, for 
example, would lead not only to direct consequences on human 
and animal health, but also a dramatic long-term psychological 
and economic effect on the nation's agribusiness community.
    In Georgia alone, the agriculture industry ranks as the 
most important sector of our economy with approximately one in 
six Georgians working in agriculture, forestry or a related 
field.
    Today, this Subcommittee will focus on a particular 
agroterrorist threat that could impact both animal and human 
health, the threat of zoonotic agents, diseases that can be 
transmitted from animal to human, are particularly relevant 
given the emergency of a highly pathogenic avian influenza in 
southeast Asia, Africa and Europe. However, avian flu is not 
the only agent that can be transmitted from animal to human. In 
fact, of the agents on the CDC's list of most dangerous 
pathogens, smallpox is the only one not considered to be 
zoonotic. Thus, it would appear that keeping our farms safe is 
key to keeping ourselves safe as well.
    Building firewalls designed to prevent zoonotic agents from 
emerging on our farms, our markets or even our tables is a 
challenging goal that requires multiple layers of defense. 
Preventing the entry of foreign disease into the country 
through our borders is the first line of defense and we must 
have adequate inspection and quarantine facilities at our 
border and ports of entry. In addition, we must focus on people 
with the intent to conduct acts of malevolence.
    I have often said that we focus too much on responding to 
potential things. There are an infinite number of things that 
terrorists can use to cause us harm. There are a finite number 
of people willing to do it. Perhaps we should be looking for 
people instead of things.
    This is especially true for agroterrorism. We must be able 
to link the threats to U.S. agriculture gathered by the 
intelligence community with the targeted actions the 
agriculture community must take to prevent and prepare for an 
attack.
    Additionally, the vigilance from our farmers will be 
critical. Farmers will be called to serve as both first 
responders and first preventers. They will be the first to 
detect the emergence of the zoonotic disease, the first to 
report an agroterrorist attack and the first to respond to 
either evil.
    To aid the agriculture community, we must have solid 
research into how to prevent an agroterrorist attack and, more 
importantly, how to minimize its impact. Institutions like the 
University of Georgia, for example and the research underway at 
the College of Agriculture and Environmental Sciences and the 
College of Veterinary Medicine, are vital in further 
understanding infectious diseases.
    The Centers for Disease Control and Prevention located in 
Atlanta and the USDA research facilities in Atlanta and around 
the state are also providing leading research in this field.
    I cannot emphasize enough that prevention is the only 
government action that will ensure failure for those who wish 
to harm our people and our way of life. As such, I look forward 
to hearing the testimony of our witnesses and hearing what 
respective agencies are doing to address this vitally important 
issue.
    I now ask unanimous consent to recognize a friend of 32 
years who I met in this campus in December of 1974 when we were 
both elected to the Georgia House. My friend David Scott.
    Mr. Scott. Thank you very much, Chairman Linder. This is 
indeed a pleasure and an excellent opportunity for us to come 
to the University of Georgia. It is very timely and very 
appropriate that we have this hearing here because the 
University of Georgia has been at the forefront of this area of 
making sure we are safe in terms of any bioterrorism, and of 
course the agricultural importance to our state and the tie 
that that has to the University of Georgia certainly is evident 
from the many, many accomplishments that the University of 
Georgia has done. And of course, in this region, have the 
Centers for Disease Control located here in this region is 
vitally important as we bring all of these two together.
    We have some extraordinary expert panelists, we are 
certainly looking forward to them giving us the latest 
information that they have.
    An ounce of prevention is worth a pound of cure. I cannot 
begin to tell you, as a member of the Agriculture Committee and 
now the Ranking Member on our Subcommittee in Livestock, 
Horticulture and Crops, we are vitally concerned about 
protecting our food supply line. If we have a weak link now in 
the fight on terror, this is it.
    So this is very timely. I look forward to it. Mr. Chairman, 
thank you for having me join you.
    Mr. Linder. I thank the gentleman.
    It is against the rules of the Committee to have other 
people make opening statements but I will ask unanimous consent 
to allow that to happen for our other two guests on the panel. 
Dr. Norwood.
    Dr. Norwood. Thank you very much, Mr. Chairman, I 
appreciate being recognized today to participate in your 
hearing. I appreciate the courtesy you have extended in 
allowing all of us to join in this most important, vital 
hearing, and I welcome you back to your district, your old 
district and I welcome you back to my old district and I 
welcome you to John Barrow's district and I welcome you to my 
new district.
    [Laughter.]
    Dr. Norwood. So we are really happy to be in Athens, Clarke 
County today.
    The Subcommittee on Prevention of Nuclear and Biological 
Attack could not have picked a more appropriate location to 
explore the federal government's strategy to combat agro- and 
bioterrorism. The issue is of paramount importance to every 
citizen in the state of Georgia and I am pleased that you had 
the foresight to bring the message directly to the folks who 
are working on the front lines in this very critical issue.
    It has been said that our nation's agricultural 
infrastructure represents the soft underbelly of our homeland 
security network. Unlike many sectors of the nation's economy, 
such as aviation, American farmers and agribusinesses are 
linked together through a diffuse system that does not lend 
itself to security oversight from any one particular 
governmental agency. This arrangement in the private sector 
allows American agriculture to provide the highest quality and 
reliable source of food to citizens throughout the world. After 
all, American farmers, ranchers and producers already generate 
a one trillion dollar economy, including more than $50 billion 
in exports. In the state of Georgia alone, the poultry 
industry's annual contribution to the statewide economy exceeds 
more than $13.5 billion That staggering figure ought to raise 
an eyebrow. But consider this--if Georgia were an independent 
country, we would rank as the world's fifth largest poultry 
producer just behind the country of Mexico. That is serious 
business in the 10th District of Georgia and in this state. It, 
therefore, is not a stretch to say that the agricultural 
industry continues to serve as the backbone of the statewide 
economy in Georgia.
    However, it also provides the enemies of freedom with an 
attractive target for acts of international terrorism. The 
Department of Homeland Security, U.S. Department of 
Agriculture, Centers for Disease Control, all play an important 
role in protecting the American agricultural industry from such 
an attack.
    Yet no single agency currently has the ability to 
simultaneously defend against the threat of a terrorist attack 
on agriculture, prepare the federal response to an attack and 
then protect the American people from a potentially 
catastrophic disruption in the food chain.
    In the event of an attack, any break in the chain 
connecting the three federal agencies will put American lives 
at risk. It is nothing short of critical to address this 
potential breach and I am so pleased that the Department of 
Homeland Security is moving forward with a plan to establish an 
integrated biological and agricultural defense facility. The 
National Bio and Agro-Defense Facility, NBADF--I hate those 
acronyms--as the project is commonly known, is simply just what 
the doctor ordered. And it goes without saying that the 
University of Georgia can and should play a role in the 
establishment of NBADF.
    The University's property off College Station Road already 
houses the U.S. Department of Agriculture's Richard B. Russell 
Research Center, Southeast Poultry Research Laboratory and 
offers a convenient transportation link to the Centers for 
Disease Control in Atlanta via Highway 316.
    In addition to the deep knowledge of the University's 
faculty and working relationship with the private sector, the 
combination of existing government and university-based 
resources will allow NBADF to quickly take root in the 
community and achieve its mission.
    I know you share my opinion, Mr. Chairman, so I will not 
belabor this point. But I do want to take the opportunity to 
thank you once again for allowing us to play a role in today's 
hearing. The issue that the Committee's esteemed witnesses will 
discuss today are important to my constituents in the 10th 
District and I look forward to the testimony.
    Mr. Linder. The gentleman from Athens, Georgia is 
recognized, Mr. Barrow, for five minutes.
    Mr. Barrow. Thank you, Mr. Chairman, and thank you for 
holding this hearing on this very important subject here at the 
University of Georgia and thank you for extending the courtesy 
to me as the member who has the privilege of representing this 
community for the time being, participation in your Committee 
hearing. It was your community yesterday, it is my community 
today, it will be Congressman Norwood's community tomorrow. The 
thing I want to emphasize is that institutions like the 
University of Georgia are kind of like those ``be'' employees, 
they be here before we here, they be here while we are here and 
they be here after we are gone. And I think it is up to us to 
try and provide institutions like the University of Georgia all 
the resources they need in order to help make us secure.
    Agroterrorism is a subject that needs a lot more attention 
I think than it has gotten recently. A terrorist attack on the 
agriculture industry in this country could be a low-cost but 
incredibly highly effective means of destroying the economy of 
the United States, and that is right up Al Qaeda's alley. No 
industry is more American than agriculture and none is more 
vital to our economy.
    It has already been noted, agriculture accounts for about a 
trillion dollars in annual economic activity in this country 
and creates one-sixth of our gross national product. One in 
eight Americans work in agriculture. And to bring the point 
home, here in Georgia, one in six citizens work in agriculture. 
According to a 2003 Senate Committee on Governmental Affairs 
Report, we have evidence that agriculture and food are 
potential Al Qaeda targets since 2002. That is when we found in 
terrorist hideouts in Afghanistan agricultural documents and 
manuals describing ways to make animal and plant poisons.
    In December of 2004, then Secretary of Health and Human 
Services Tommy Thompson said ``For the life of me, I cannot 
understand why the terrorists have not attacked our food supply 
because it is so easy to do.''
    According to the Congressional Research Service, 
agriculture has several characteristics that pose unique 
problems for managing our response to this threat. Agriculture 
production is spread out in unsecured environments all over the 
country. Livestock are usually concentrated in confined 
locations and then moved and commingled with other herds.
    Pest and disease outbreaks can bring economically important 
exports to a screeching halt. Many veterinarians lack 
experience with foreign animal disease that are resilient and 
endemic in foreign countries. The global economy and increased 
imports of agricultural products and foreign travelers in this 
country increase the possibilities for introducing foreign, 
invasive agricultural pests and diseases such as avian flu and 
foot and mouth disease.
    It is critical to our economy and to our homeland security 
that the government does everything possible to prevent either 
accidental or deliberate introduction of potentially 
destructive organisms in the United States.
    Congress and the Administration have done a lot since 9/11 
to protect the agricultural industry from the natural or 
manmade attack. Congress held hearings and enacted laws, 
Homeland Security Department has been created. The Executive 
Branch has issued new directives creating liaison and 
coordination offices. All that has happened. When you add up 
the regular annual appropriations, the supplemental 
appropriations and the user fees that have been adopted to 
address these programs, for both the Department of Agriculture 
and the Department of Homeland Security, funding for ag 
security has grown by 44 percent over four years, from $552 
million in fiscal year 2002 to $797 million in fiscal year 
2006. And while all these things are positive, we still have a 
long way to go to make sure that resources are being utilized 
effectively. And one of the things I hope we can address today 
is some of the concerns about how we are utilizing resources 
that have been allocated so far.
    On May 19 of this year, the General Accountability Office 
released a report at the request of Congress on the inter-
agency coordination between the Department of Agriculture, the 
Department of Homeland Security regarding ag inspections. While 
the report cited some positive improvements in inter-agency 
coordination since the creation of Homeland Security, the 
report cited problems in several areas that I hope we can 
address. For example, the Department of Homeland Security had 
not developed performance measures for agricultural 
inspections, but is still using USDA Animal and Plant 
Inspection Service measures, which did not reflect all of DHS's 
activities.
    Staffing and related staffing performance measures are also 
lacking.
    Agriculture specialists are not always notified of urgent 
inspection alerts issued by APHIS. A survey suggests that only 
21 percent of agriculture specialists receive alerts in a 
timely manner.
    The number of canine units has gone down from 140 to 80. 
And since the transfer to DHS, some 60 percent of 43 canine 
teams that were tested failed in APHIS proficiency tests.
    There are financial management issues. User fees are less 
than program costs. DHS was unable to provide APHIS with 
information of actual cost by type of activity and USDA has 
sometimes been slow to transfer user fees to DHS.
    I am glad that members of the Ag Committee, Congressman 
Scott and I, were able to attend this hearing, and I look 
forward to working with you, Mr. Chairman, and with my 
colleagues to help fix some of the inter-agency problems 
between the Department of Homeland Security and the Department 
of Agriculture mentioned in the General Accountability Office's 
report.
    Once again, thank you for letting us participate and I look 
forward to the testimony of the witnesses today.
    Mr. Linder. Thank you.
    We are pleased to have before us today a distinguished 
panel of witnesses on this important topic. I would like to 
remind the witnesses that your entire statement will appear in 
the record. We would like to ask you to keep your comments to 
no more than five minutes.
    Our first witness today is Dr. Edward Knipling. Dr. 
Knipling is the Administrator for USDA's Agricultural Research 
Service, has held several positions with the USDA since 1968.
    Dr. Jeff Runge is the Chief Medical Officer for DHS and a 
former of the National Highway Traffic Safety Administration as 
well as being a frequent guest in front of this Committee.
    The final witness is Dr. Lonnie King. Dr. King is the 
Senior Veterinarian at the Atlanta based Centers for Disease 
Control and Prevention. He is a former dean of the Michigan 
State University College of Veterinary Medicine and 
Administrator for the USDA's Animal Plant Health Inspection 
Service.
    Dr. Knipling is recognized for five minutes.

 STATEMENT OF DR. EDWARD KNIPLING, ADMINISTRATOR, AGRICULTURAL 
        RESEARCH SERVICE, U.S. DEPARTMENT OF AGRICULTURE

    Dr. Knipling. Well, thank you, Mr. Chairman and members of 
the Subcommittee. My name is Edward Knipling, I am the 
Administrator of the USDA Agricultural Research Service. ARS is 
the intramural science research arm of USDA and we operate over 
100 laboratories across the nation on all aspects of 
agricultural science. In fact, as has already been pointed out 
by members of the Subcommittee, one of our primary research 
locations is right here in Athens, in cooperation with the 
University of Georgia. And one of our principal activities here 
in Athens deals with poultry diseases which is very much 
related to the subject matter of this hearing. I will say more 
about that work in a few minutes.
    But I would first like to thank the Subcommittee for the 
opportunity to appear before you today to present testimony 
about ARS's research to prevent agroterrorism, especially 
zoonotic threats. Zoonotic diseases represent an ongoing threat 
to animal agriculture and public health. The pathogens causing 
these diseases propagate first in some livestock and other 
animal species, potentially causing severe economic harm before 
spreading to humans. And this is a significant reminder that 
protecting the health of livestock and the entire U.S. food and 
agricultural enterprise is an important part of protecting 
human health and homeland security. In other words, helping to 
prevent the perfect storm, as this hearing is entitled.
    Mr. Chairman, in light of the significance of these 
threats, I am pleased to share with you recent ARS research 
efforts to develop new knowledge and technology to help prevent 
and prepare for zoonotic diseases.
    In the current fiscal year, 2006, ARS is spending 
approximately $100 million on food and agricultural defense, 
which is about nine percent of our total annual appropriation. 
While there are many zoonotic diseases that could be considered 
in this hearing, I have selected the ones that we believe could 
be the most serious threats to American agriculture.
    The current strain of high pathogenic avian influenza being 
founds in parts of the world has resulted in the death of at 
least 150 million domestic and wild birds. ARS scientists in 
our internationally-recognized Southeastern Poultry Research 
Laboratory here in Athens, Georgia are conducting extensive 
research to improve detection methods, develop effective 
vaccines and monitor the mutations of the disease. Several of 
these scientists have accompanied me here to these hearings.
    In support of the USDA Animal and Plant Health Inspection 
Service, these scientists have developed and tested a rapid 
detection method of finding AI infections in live bird markets. 
This procedure, using modern tools and understandings of 
molecular biology was also successfully employed in poultry 
markets in Texas and Virginia that contained avian influenza 
outbreaks in previous years and has now been distributed to 
laboratories throughout the United States to use in the future 
if new avian influenza outbreaks are suspected.
    ARS research on AI vaccines has shown how these vaccines 
can be used most effectively and has provided insights crucial 
to the development of new vaccines as the virus continues to 
mutate. Scientists are also evaluating AI viruses from several 
countries to track if and how mutations occur.
    Turning now to other diseases, anthrax, caused by spore-
forming soil bacterium can infect livestock, which is sometimes 
fatal to them. Anthrax spores could be used as a bioterrorism 
agent in several ways, such as contaminating liquid egg 
products, milk or beef products.
    As you no doubt remember, in 2001, anthrax was successfully 
deployed as a biological weapon by an unknown perpetrator in 
letters containing anthrax spores sent to several locations via 
the U.S. Postal System. Five people died as a result. USDA 
assisted in the subsequent monitoring of the potential spore 
contamination of mail addressed to U.S. government agencies.
    ARS is working to prevent anthrax infections by improving 
detection methods, evaluating spore growth and survival 
patterns of the spores and developing improved processing 
techniques to remove and deactivate the bacteria in food.
    Additional research is critical for developing improved 
detection and processing techniques.
    Brucellosis, a bacterial disease that devastates livestock 
worldwide is classified by the United States biodefense 
community as a potential bioweapon. It causes significant 
illness and death in animals and humans. Great progress has 
been made in eradicating brucellosis from the nation's cattle 
and swine populations over the past 50 years and in helping to 
control it in some wildlife species.
    ARS research on brucellosis has identified specific gene 
sequences that can be used in developing effective diagnostic 
techniques and vaccines. Vaccines are being tested on wild and 
domestic animals and new diagnostic methods are being developed 
to trace the source of brucellosis outbreaks in the field.
    The Rift Valley fever virus transmitted by mosquitos is a 
biological threat agent of high priority to the U.S. livestock 
industries. Introduction of this pathogen, intentionally or 
even accidentally, would be catastrophic to the agricultural 
economy. North American livestock have no resistance to the 
virus so it would spread rapidly and result in major bans on 
U.S. product exports to other countries and non-infected areas.
    ARS is developing Rift Valley fever disease detection 
techniques and evaluating vaccines and control methods.
    ARS conducts research on other zoonotic threats that are 
not officially recognized as bioterrorism agents, even though 
they could be intentionally used to contaminate food supplies. 
Working with other agencies within and outside USDA, ARS 
research focuses on detecting and controlling food pathogens 
such as E.coli, salmonella and other bacterial pathogens.
    Much of this and other ARS food safety research, 
particularly for poultry and meat products, is also carried out 
here in Athens at the Richard Russell Agricultural Research 
Center, named after the late Georgia Senator. The U.S. Food 
Safety and Inspection Service is also housed with ARS in this 
center, whom we work very closely with to assure the safety of 
the food supply.
    Here and elsewhere, ARS is also participating with other 
USDA agencies and the National Swine Production Sector in a 
surveillance program to monitor bacterial diseases in 
relationship to farm practices, bacterial populations and the 
antibiotic resistance levels of these bacteria. This program 
will serve as a model for future animal disease surveillance 
efforts on a national level and it also promises to be vital to 
the Department of Homeland Security's National Biosecurity 
Integration System and its effort to limit damages to the 
economy, animal health and public health.
    In summary, ARS is pleased to work toward preventing and 
preparing for agroterrorism and zoonotic diseases. I thank you 
once again for the opportunity to share some of our research 
with you.
    Mr. Chairman, this completes my brief oral comments and I 
would be pleased to participate in the question/answer session 
later.
    Mr. Linder. Thank you, Doctor.
    Dr. Runge.
    [The prepared statement of Dr. Knipling follows:]

              Prepared Statement of Dr. Edward B. Knipling

    Mr. Chairman and Members of the Subcommittee, I am Edward B. 
Knipling, Administrator of the Agricultural Research Service (ARS). We 
are the primary intramural science research agency of the United States 
Department of Agriculture (USDA). ARS operates a network of over 100 
research laboratories across the Nation on all aspects of agricultural 
science, including crop and livestock protection and food safety 
research.
    Thank you for the opportunity to appear before the Subcommittee 
today to present testimony about ARS' efforts to prevent agroterrorism, 
particularly zoonotic threats. I am pleased to inform you of ARS' 
research to prevent and prepare for these diseases, which are of 
particular significance as we seek to protect ourselves from 
agroterrorism. Zoonotic diseases represent an ongoing threat to animals 
and public health, propagating first in crucial species and potentially 
causing severe economic devastation before spreading to humans. 
Agricultural production is geographically scattered in sites that are 
difficult to protect. Groups of livestock are concentrated in confined 
locations and then transported and mixed with other groups on their way 
to market, which can facilitate the spread of disease from one animal 
to another. Furthermore, as Dr. Julie Gerberding, the Director of the 
Department of Health and Human Services (HHS) Centers for Disease 
Control and Prevention (CDC), has stated, "Eleven of the last 12 
emerging infectious diseases that we're aware of in the world, that 
have had human health consequences, have probably arisen from animal 
sources." This is a significant reminder that protecting the health of 
our animals is an important part of protecting human health.
    Mr. Chairman, in light of the significance of these threats, I am 
pleased to share with you recent ARS research efforts to prevent and 
prepare for zoonotic diseases. In fiscal year 2006, ARS spent 
$93,799,000 on food and agricultural defense, which was around 9 
percent of our total annual budget. While there are many zoonotic 
diseases that could be considered in this hearing, I am discussing some 
examples that we believe could be the most serious threats to American 
agriculture.

Avian Influenza
    The current strain of high pathogenic avian influenza (AI) 
circulating in Asia, Africa, and Europe has resulted in the death of at 
least 150 million domestic and wild birds that were either killed by 
the virus or destroyed because they were at risk of being infected. ARS 
scientists are conducting extensive research to better understand and 
control existing AI strains. While our focus is on poultry, ARS is also 
working with other organizations to track mutations that occur in 
existing AI strains in anticipation of the day when they may evolve 
into forms that are more contagious and deadly to poultry, other avian 
species including wild birds, and potentially humans.
    The most effective means of controlling many zoonotic diseases is 
at the source, which in the case of AI is the domestic and wild birds 
that carry and contract the virus. ARS conducts AI research at its high 
containment facility in Athens, Georgia. This laboratory is recognized 
internationally as one of the world's leading AI research centers.
    There are several areas of AI that are under active investigation 
at this time. One key research area is the development of tests to 
rapidly detect AI infections in chickens and other avian species. ARS 
worked with the USDA Animal and Plant Health Inspection Service (APHIS) 
to develop and test a rapid detection method of finding AI infections 
in live bird markets. Using this test, researchers can determine 
infection with the H5 or H7 form of the virus in three hours. In 
addition, this test has proven successful for pen-side screening, 
pending the development of more sensitive screening tools in progress. 
This procedure was successfully employed in poultry markets in Texas 
and Virginia to contain AI outbreaks in previous years, and has now 
been distributed to laboratories throughout the United States to use in 
the future if new AI outbreaks are suspected.
    ARS research has also supported the development of AI vaccines, 
which have several use restrictions. For the H5 and H7 sub-types of the 
virus, vaccine use requires APHIS, USDA, and State approval, along with 
a USDA license. For other sub-types of the virus, State approval is 
required for use. In the United States, immunization is not routinely 
practiced for trade reasons and because routine vaccination against 
certain strains is not cost-effective. However, poultry producers are 
now considering vaccination more often, because immunization against 
some AI strains can potentially control outbreaks at a lower cost than 
large-scale culling of poultry.
    ARS research includes the development of vaccines to protect 
poultry from both established and mutating AI viruses. Some types of 
chickens are protected from AI infection for at least 20 weeks after a 
single vaccination. Two types of vaccines are currently available, but 
ARS research has shown that the vaccine must match the AI strain to 
provide optimal protection against the virus. In addition, if a bird is 
infected with a certain strain of AI and receives a vaccine developed 
for that strain, it will shed fewer viruses, which will limit its 
ability to transmit the infection to other birds. Building on this 
research, ARS has entered into several Cooperative Research and 
Development Agreements with private companies to accelerate the 
development of new vaccines to protect U.S. poultry and their use.
    ARS is leading research in demonstrating that the accumulation of 
mutations in the AI viral genome can reduce the effectiveness of 
vaccines. As a result, three vaccines have been developed using DNA 
splicing techniques, and all of them have initially shown promise in 
protecting against AI. Using these vaccines would allow immunized birds 
to be distinguished from naturally infected birds, thus reducing trade 
issues. These new vaccines are now being compared to existing vaccines 
to evaluate their cost effectiveness.
    ARS is also studying AI in free-flying waterfowl by working with 
collaborators at the Moscow-based International Science and Technology 
Center. Researchers are collecting samples from wild birds that follow 
migratory flyways over Russia. This sampling technique allows constant 
monitoring of AI virus strains, and provides scientists with an early 
warning system when new strains emerge in wild populations.
    AI viruses obtained from the United States, Hong Kong, Italy, El 
Salvador, Chile, Netherlands, Indonesia, Viet Nam, and South Korea are 
being evaluated by ARS for their genetic markers, potential virulence, 
source, and spread. ARS is developing and evaluating techniques to 
predict which low pathogenicity AI viruses are at greatest risk for 
changing into high pathogenicity AI viruses.
    Working with CDC, ARS has tested proposed human influenza vaccines 
to make sure they pose no threat to poultry production in the unlikely 
case the viruses used by commercial manufacturers for vaccine 
production are accidentally released into the poultry environment. In 
addition, ARS has shared data on AI vaccines and vaccination with the 
Food and Agriculture Organization and the World Organization for Animal 
Health.

Anthrax
    Bacillus anthracis is a spore-forming bacterium that can be found 
in soil and can cause disease - commonly known as anthrax - in 
livestock and other animals. Anthrax spores could be used as an 
agroterrorism agent in several ways. This might include intentional 
contamination of many different types of food including liquid egg 
products, milk or meat. In addition, humans can become infected by 
handling products from infected animals, inhaling anthrax spores from 
contaminated animal products, and consuming meat products from infected 
animals. Without treatment, the mortality rate for pulmonary anthrax is 
70-80%. In many cases, pulmonary and gastrointestinal anthrax is fatal 
if not treated immediately. However the mortality rate for 
gastrointestinal infections is not as high, perhaps 50%, and less then 
1% for cutaneous, if properly treated.
    In 2001, anthrax was successfully deployed as a biological weapon 
when letters containing anthrax spores were sent to several locations 
via the U.S. postal system. Five people died as a result, and USDA 
established a temporary mobile laboratory in Washington, D.C. to assist 
in examination of suspicious envelopes received at several government 
agency mailrooms.
    ARS works to prevent anthrax contamination of food by improving 
detection methods, evaluating growth and survival patterns of the 
spores, and developing improved processing techniques to remove them 
from and/or deactivate them in liquid egg, milk and meat products. ARS 
researchers have studied and developed methods for detecting anthrax in 
milk at various stages during the course of transport and processing. 
Scientists showed that the Ruggedized Advanced Pathogen Identification 
Device (RAPID) can be used to detect very low numbers of anthrax in 
milk. Researchers also determined that high-temperature pasteurization 
does not sufficiently deactivate anthrax spores in milk. To supplement 
the pasteurizing process, ARS has developed a micro-filtration process 
can remove anthrax spores to a level well below infectious thresholds; 
this process can be used to decrease the likelihood that the milk 
supply will be harmful.. Microfiltration is being used commercially for 
a variety of reasons, including the removal of bacteria.
    Researchers have also studied the survival trends of anthrax when 
contaminated meat is stored and cooked at various temperatures. The 
scientists developed models for predicting the growth and survival of 
the bacteria as well as recommendations for storage and cooking to 
reduce contamination. Researchers continue to work on improving 
processing techniques to deactivate anthrax in liquid egg products, 
where it can also threaten the safety of food. In light of the 
mortality rates associated with gastrointestinal infection, anthrax 
research to develop improved detection and processing techniques is 
critical, and ARS continues to work toward meeting this need.

Brucellosis
    Brucellosis has been classified by the United States bio-defense 
community as a potential agent for bioterrorism, and is one of the most 
important zoonotic diseases of livestock worldwide. It can cause 
significant illness and lead to abortion and death in animals and 
humans. There are several Brucella species but many can infect all 
mammals to some degree. Wildlife, including bison, elk, and feral 
swine, can carry and transmit brucellosis to domestic animals.
    ARS researchers are conducting extensive research on brucellosis at 
the National Animal Disease Center in Ames, Iowa, with a fiscal year 
2006 budget of $2,987,500. Brucellosis has been subject to an intensive 
eradication campaign in the U.S. for the last 50 years, and great 
progress has been made in eradicating it from the Nation's cattle and 
swine. However, brucellosis has been a tremendous burden for livestock 
producers. Over the years, Federal and State governments, along with 
the livestock industry, have spent billions of dollars to control and 
eliminate the disease.
    ARS has been very active in researching Brucellosis. Genetic 
studies have identified specific genetic patterns in different Brucella 
species, which gives scientists information to use in their search for 
effective diagnostic techniques and vaccines. Vaccines are being tested 
on wild and domestic animals to find effective immunization protocols 
for the treatment of brucellosis and for its eradication in wildlife. 
Another key area is research into new diagnostic methods that will 
allow researchers to trace the source of Brucellosis outbreaks in the 
field.

Rift Valley Fever
    When considering both economic and public health implications, the 
Rift Valley Fever virus is a priority biological threat agent for the 
U.S. livestock industries. Rift Valley Fever is transmitted by 
mosquitoes and affects both humans and animals. Rift Valley Fever is 
more likely to cause severe disease and death in animals than in 
humans, but human fatality rates as high as 20% have been reported and 
it can cause severe vision damage, hemorrhaging, and inflammation of 
the brain in those who survive. There have not been any reported 
outbreaks in the United States, but an introduction of the virus could 
be catastrophic to the agricultural economy. The disease has already 
moved out of East Africa into Egypt, Yemen, and Saudi Arabia. North 
American livestock have no resistance to the virus, so it would spread 
rapidly, resulting in major bans on product transport and export from 
infected areas.
    ARS is currently working with CDC and the Department of Defense to 
develop detection techniques, to evaluate vaccines, and to develop 
control methods tailored to the cause of infection and the method of 
transmission. ARS researchers have developed models to detect 
environmental conditions that may precede disease outbreaks, which will 
be useful for agricultural and public health officials for enhancing 
disease surveillance and preparing for an outbreak. Other ARS 
scientists are studying the mosquitoes that carry the virus to 
determine natural infection rates and the genetic factors that affect 
transmission. ARS is also collaborating with the Canadian Food 
Inspection Agency to develop detection methods and effective vaccines 
for Rift Valley Fever.

Related Food Safety and Health Research
    ARS conducts research to detect and control other biological agents 
such as Yersinia pestis and Salmonella species that can be 
intentionally used to make the food supply unsafe. The knowledge of 
detection methods, the decontamination process, and control of organism 
growth that ARS has gained in these research programs all contribute to 
a better understanding of how to protect against bioterrorism attacks 
on the agriculture and food system using zoonotic agents.
    For instance, ARS has determined that microarray technology is a 
highly effective means of detecting potential bioterrorism agents. 
Microarray technology allows researchers to simultaneously test 
thousands of samples and to discriminate among pathogen species and 
their different strains. By combining this technology with the Agency's 
genome sequencing studies, ARS will be able to detect and characterize 
more than 25 pathogens and toxins that threaten the safety of food. 
Regarding meat contamination, ARS researchers have determined that 
ionizing radiation is a highly effective means of deactivating 
pathogens such as Yersinia pestis.
    In support of USDA action ARS, in association with the Food Safety 
Inspection Service, used a tool developed by the HHS Food and Drug 
Administration, the Department of Defense, the Department of Homeland 
Security, and the Central Intelligence Agency to assess and predict how 
vulnerable a certain food system is to attack. This tool considers 
seven factors: criticality, accessibility, recuperability, 
vulnerability, effect, recognizability, and shock (CARVER + Shock). By 
assessing these factors, researchers determine the level of threat that 
toxins and threat agents pose to a given food system and establish 
research priorities. In other collaborative efforts, ARS is working 
with the United States Army to develop portable imaging devices for 
pathogen detection. ARS is also working with the Food Emergency 
Response Network Methods Subcommittee to evaluate technologies to be 
incorporated into a Biosecurity Protocol Manual.

Surveillance
    ARS is working with other USDA agencies to develop a surveillance 
program to determine how farm practices affect bacterial populations 
and the antibiotic resistance levels of those bacteria. This program 
will serve as a model for future surveillance efforts on a national 
level, assisting the Food Safety and Inspection Service, the Food and 
Drug Administration, and the food animal industry in the production of 
safe food products. It also promises to be vital to the Department of 
Homeland Security's National Biosurveillance Integration System and to 
its efforts to limit damages to the economy, animal health, and public 
health. The project is conducted by ARS researchers in Ames, Iowa; 
Athens, Georgia; College Station, Texas; and Beltsville, Maryland.
    In summary, ARS is pleased to work toward preventing and preparing 
for agroterrorism and zoonotic diseases. We thank you for the 
opportunity to share our research with you. Mr. Chairman, this 
concludes my remarks. I would be happy to answer any questions.

   STATEMENT OF DR. JEFF RUNGE, CHIEF MEDICAL OFFICER, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Dr. Runge. Thank you, Mr. Chairman. I appreciate the 
opportunity that you and Congressman Scott, Dr. Norwood and 
Congressman Barrow have given us to talk a bit today about the 
devastating effects that a bioterror incident could have on our 
critical infrastructures and our way of life in this country.
    The Department of Homeland Security has the duty and indeed 
is in the unique position to coordinate a one medicine approach 
between multiple agencies and stakeholders to reach a state of 
national preparedness that we all seek. DHS is responsible for 
coordinating the overall national efforts to enhance the 
protection of our nation's key resources and critical 
infrastructures--among them, plant and animal agriculture and 
food--under the National Response Plan, and National 
Infrastructure Protection Plan. In doing so, we work with our 
fellow government partners that we have designated as sector-
specific agencies; in this case Department of Health and Human 
Services and the Department of Agriculture.
    The specific roles and responsibilities of our federal 
partners in agrodefense are outlined in the various homeland 
security Presidential Directives, particular 7, 9 and 10.
    We use the National Response Plan and the National Incident 
Management System to coordinate the federal resources to 
respond and recover from high consequence events.
    DHS's agrodefense activities are housed in several areas of 
the Department, led by the Preparedness Directorate. Its 
Infrastructure Protection Office coordinates the various 
private sector entities with ownership of our national 
infrastructures and facilitates public/private partnerships to 
share information and develop and deploy infrastructure shields 
and mitigation strategies to reduce risk.
    The new National Biosurveillance Integration System or NBIS 
is also part of the Preparedness Directorate. NBIS works with 
our inter-agency partners to integrate disparate sources of 
data for a fuller picture of a biothreat as it evolves in real 
time.
    Other DHS directorates and components have vital and 
distinct responsibilities as well, including intelligence 
assessments, cargo and traveler inspections at our borders and 
development of response planning and operations. Specifically, 
the Science and Technology Directorate, which I had the 
privilege to lead for the last six months in an acting 
capacity, conducts material threat determinations and 
assessments and operates the Plum Island Animal Disease Center, 
the only facility in the nation that is authorized to handle 
certain foreign animal diseases. S&T also works closely with 
USDA, both APHIS and the ARS, to develop decision-making tools, 
veterinary counter-measures and disease diagnostics for 
prevention of both accidental and intentional outbreaks.
    All these activities, Mr. Chairman, are overseen, will be 
overseen and coordinated through our new Office of the Chief 
Medical Officer, which we established late last year. My first 
hire within the Office of Chief Medical Officer was a Chief 
Veterinarian and this past Monday, I was fortunate to have 
another very experienced veterinarian hired as my Director of 
Veterinary and Agricultural Security, Dr. Tom McGinn, who is 
with me today.
    Mr. Chairman, our world is indeed a very small place. 
Advances in transportation have made it very easy to transport 
diseased people, plants and animals legally or illegally 
throughout the world. Foreign species are being found in the 
U.S. frequently, with the organisms that they harbor. One of 
our specific concerns is the transmission of zoonotic diseases 
from animals to animals and animals to humans. Diseases like 
tuberculosis, HIV, West Nile, Lyme disease, avian influenza, 
all of which pose a threat across species, make a compelling 
case for moving to a one medicine approach to the global spread 
and control of disease.
    This concept is not new. Sir William Osler, back in the 
1800s, wrote that ``veterinary medicine and human medicine 
complement each other and should be considered as one.''
    Consider that 75 percent of the diseases that have emerged 
in the last 25 years are zoonotic in their origin and around 80 
percent of the top biological threat agents are zoonotic 
diseases. And 11 of the last 12 outbreaks of global concern are 
zoonotic in origin. Some of these diseases, even if they do not 
make people sick, can present a challenge to the health and 
well-being of our human population.
    For example, foot and mouth disease or FMD affects only 
cows, swine, sheep, goats, deer and similar species. But the 
disease could have a very dramatic effect on our domestic and 
global economy. Should the disease establish itself in our wild 
species such as feral swine, it would be almost impossible to 
eradicate. Our trade could be threatened if our trading 
partners ban parts from all or part of the country. Some 
modeling scenarios that we have developed predict that a single 
point of introduction of FMD could spread very rapidly, 
affecting millions of animals and costing the economy billions 
of dollars. Thousands of people could be affected in terms of 
jobs, income and quality of life.
    DHS has focused on performing the necessary research to 
understand foreign diseases and threats to our nation's 
agriculture and food supply that might be imposed by natural or 
man-made sources and to develop the best possible surveillance 
tools to monitor data from various sources.
    Mr. Chairman, a more detailed description of these and 
other efforts can be found in my written statement, which we 
submitted for the record and I appreciate the opportunity to be 
here.
    Mr. Linder. Thank you, Dr. Runge.
    Dr. King.

STATEMENT OF DR. LONNIE KING, SENIOR VETERINARIAN, CENTERS FOR 
 DISEASE CONTROL AND PREVENTION, U.S. DEPARTMENT OF HEALTH AND 
                         HUMAN SERVICES

    Dr. King. Thank you, Mr. Chairman and members of the 
Subcommittee. Good afternoon. I am very pleased to be here 
today to describe CDC's preparedness efforts to prepare for and 
respond to agroterrorism and zoonotic threats.
    Infectious diseases are a continuing threat to this 
nation's health. Although modern advances have controlled some 
of these diseases, certainly outbreaks of SARS, avian 
influenza, West Nile infection and monkeypox are recent 
reminders of the extraordinary ability of microbes to adapt, to 
evolve and to move worldwide. Preventing and controlling 
infectious diseases such as these require a new global 
awareness, a focus on the overlap of animal and human health to 
prevent the emergence, re-emergence and spread of zoonotic 
diseases, which are diseases transmitted from animals to 
people.
    It is estimated that 75 percent of the new emerging 
pathogens in humans over the last several decades have zoonotic 
in origin. Five of the six CDC Category A agents for 
bioterrorism are zoonotic. So while it is difficult to predict 
when and where the next zoonotic event may occur, all the 
critical factors are in place to ensure that this new era of 
emerging zoonoses, whether they come here naturally or 
intentionally will continue or may even accelerate into the 
future.
    Bioterrorism is the threat of deliberate introduction of 
animal or plant disease that would impact the U.S. food system. 
The health and security of this country depends on our 
preparedness against terrorism including agroterrorism, as well 
as other public health emergencies including the threat of 
zoonotic diseases and vector-borne diseases.
    CDC would become involved in an agroterrorism event if an 
animal disease were introduced that affected human health. We 
also clearly understand that effective animal health strategies 
can and do improve public health. And the strategies to protect 
both need to be coordinated. By partnering with other federal 
agencies that focus on animal health, with state governments, 
and with academic and private institutions, CDC is preparing 
for agroterrorism in the event of a zoonotic incursion. The 
strategic partnering is focusing on improving the collaboration 
for detection, for diagnosis, for surveillance, research, 
training, and strategies for containment and response.
    Recognizing the importance of the interface between human 
and animal health, CDC is proposing a new organizational unit, 
the National Center for Zoonotic, Vector-Borne and Enteric 
Diseases, which will bring together similarly focused programs, 
provide national and international scientific and programmatic 
leadership in zoonoses, in vector-borne diseases and foodborne, 
waterborne and other related infections as we try to identify, 
diagnose and prevent these diseases.
    The new center will focus on the continuing challenge of 
emerging and re-emerging zoonoses and indeed work 
collaboratively with a broader array of public health 
organizations such as those involved with agriculture, wildlife 
and companion animal health.
    Today, our world is progressively complex, globally inter-
dependent and thus we believe that building strategic alliances 
between public health and animal health will be a critical 
skill to address the contemporary challenges produced by the 
convergence of people, animals and animal products--indeed the 
world of one medicine and one health that Dr. Runge mentioned.
    Our agriculture and food systems seem to be especially 
vulnerable. Food and agriculture are exceptional national 
assets, certainly impact trade, commerce, economies and both 
human and animal health. Food-borne pathogens, whether it is E. 
coli: O157, Listeria, campylobacter, or the varieties of 
salmonellosis, move across species lines with ease, causing 
serious morbidity and mortality. As with other infectious 
diseases, preparedness for naturally occurring outbreaks of 
foodborne illness better prepares us for unexpected attacks.
    Routine disease surveillance systems coordinated by CDC 
provide an essential early-warning network to detect dangers in 
our food supply. In addition, these systems can be used to 
indicate new or changing patterns of foodborne illness that 
would likely detect early cases of agroterrorism involving a 
zoonotic agent.
    CDC works with state and local health departments, the 
USDA, FDA and others to investigate outbreaks caused by 
foodborne pathogens. Improved surveillance systems have allowed 
CDC to detect foodborne outbreaks in a matter of days rather 
than weeks. As a consequence, CDC can more rapidly alert the 
FDA and the USDA about implicated food products associated with 
foodborne illnesses so that all three agencies can take 
protective public health actions.
    A public health laboratory infrastructure is also critical 
in the event of a zoonotic or agroterrorism attack. The 
Laboratory Response Network, called LRN, created in 1999, has 
improved the laboratory capacity of the public health system. 
The LRN is a national network of local, state and federal 
public health, military, veterinary, food testing and 
environmental testing laboratories that provide the essential 
infrastructure and capacity to respond to biological and 
chemical terrorism and other public health emergencies.
    To enhance the linkages between human and animal health, 
the LRN works with USDA's Animal and Plant Health Inspection 
System with the laboratory in Ames, Iowa, and the veterinary 
diagnostic laboratory community.
    Preparedness for a zoonotic outbreak is further enhanced in 
terms of our preparedness through CDC's brand new designation 
as a World Animal Health Organization*, which is through the 
OIE, *(Collaborating Centre for Emerging and Re-Emerging 
Zoonoses). In this role, CDC will be better equipped to forge 
stronger ties between public health and the animal health 
sectors to control and prevent zoonoses on a global basis.
    In conclusion, the scope, scale and consequences to human 
and animal health from zoonotic and agroterrorist agents are 
really unprecedented today. Our animals and their products are 
inextricably woven with our national economy, with the public's 
health and well-being. The continuing challenges of zoonoses 
and agroterrorism are transforming forces, necessitating new 
partnerships at the interface of human and animal health.
    I am pleased to be here today to report on CDC's 
significant progress to address and to respond to this new 
reality. And I thank you for the opportunity to participate at 
this field hearing.
    [The prepared statement of Dr. King follows:]

                 Prepared Statement of Dr. Lonnie King

    Good afternoon, Chairman Linder and Members of the Subcommittee. I 
am Lonnie King, the Centers for Disease Control and Prevention's (CDC) 
Senior Veterinarian, and I am leading the effort to form a new center 
at CDC focusing on zoonotic, vector-borne, and enteric diseases. I am 
pleased to be here today to describe CDC's preparedness efforts to 
prepare for and respond to agroterrorism and zoonotic threats. Before I 
begin, I would like to briefly mention the significant investments in 
research, laboratory, public health and hospital surge capacity our 
nation has made in recent years to protect the American people from 
naturally-occurring or terror-related threats. The President's FY 2007 
Budget includes a four percent increase in bioterrorism spending for a 
total budget of $4.4 billion, an increase of $178 million over last 
year's level. This increase will enable us to accomplish a number of 
important tasks. The Department of Health and Human Services (HHS) will 
improve our medical surge capacity; increase the medicines and supplies 
in the Strategic National Stockpile; support a mass casualty care 
initiative; and promote the advanced development of biodefense 
countermeasures to a stage of development so they can be considered for 
procurement under Project BioShield.
    We also continue to prepare against a possible pandemic influenza 
outbreak and appreciate your support of $2.3 billion for the second 
year of the President's Pandemic Influenza plan, in the FY 2006 
Emergency Supplemental Appropriations Act for Defense, the Global War 
on Terror, and Hurricane Recovery. The President's FY 2007 budget also 
provides more than $350 million for important ongoing pandemic 
influenza activities such as safeguarding the Nation's food supply, 
global disease surveillance, and accelerating the development of 
vaccines, drugs, and diagnostics.Finally, it is important to note that 
HHS funding to enhance State and local preparedness for public health 
emergencies, including pandemic influenza, has existed since 2001. 
Principally through CDC and the Health Resources and Services 
Administration (HRSA) funds have been provided to States and localities 
to upgrade infectious disease surveillance and investigation, enhance 
the readiness of hospitals and the health care system to deal with 
large numbers of casualties, expand public health laboratory and 
communications capacities and improve connectivity between hospitals, 
and city, local and state health departments to enhance disease 
reporting. Including the funding we have requested for FY07, CDC's and 
HRSA's total investments in State and local preparedness since 2001 
will total almost $8 billion.

Background
    Infectious diseases are a continuing threat to our nation's health. 
Although modern advances have conquered some diseases, the outbreaks of 
Severe Acute Respiratory Syndrome (SARS), avian influenza, West Nile 
virus (WNV) infection, and monkeypox are recent reminders of the 
extraordinary ability of microbes to adapt and evolve. Earlier 
predictions of the elimination of infectious diseases often did not 
take into account changes in demographics and human behaviors and the 
ability of microbes to adapt, evolve, and develop resistance to 
antimicrobial drugs. In 2003, the Institute of Medicine (IOM) issued a 
report, "Microbial Threats to Health: Emergence, Detection, and 
Response," that outlined recommendations on critical issues facing the 
prevention and control of microbial threats to human health. The IOM 
described thirteen factors involved in the emergence of infectious 
diseases. A majority of these factors included agricultural or animal 
health issues that inevitably affect human health. The report also 
recognized the growing threat from diseases transmitted by an animal 
vector and zoonotic diseases-diseases that can be transmitted from 
animals to humans. The emergence of SARS in 2003 demonstrated that U.S. 
health and global health are inextricably linked and that fulfilling 
CDC's infectious diseases mission - to prevent illness, disability, and 
death caused by infectious diseases in the United States and around the 
world - requires global awareness and a focus on the overlap of animal 
and human health.
    It is estimated that 75 percent of emerging pathogens are zoonotic 
in origin. High-priority bioterrorism agents (Category A agents) 
include organisms that pose a risk to national security because they 
can be easily disseminated or transmitted from person to person, result 
in high mortality rates, and have the potential for major public health 
impact. Five of the six CDC Category A potential agents of bioterrorism 
are zoonotic. Agroterrorism is the threat of or deliberate introduction 
of an animal or plant disease that would impact U.S. food systems. CDC 
would become involved in a response if an animal disease were 
introduced that affected human health. Vectors, such as insects or 
ticks, are among the most common conduits for disease transmission from 
animals to humans. Diseases transmitted by vectors are especially 
difficult to control, as demonstrated by the rapid spread of West Nile 
virus, which has so far infected more than 1.2 million Americans. Other 
examples of vector-borne diseases include plague, tularemia, and many 
hemorrhagic viruses, like Rift Valley fever. Current examples of this 
risk are the epidemic of chikungunya virus in the Indian Ocean, the 
jump of Rift Valley fever from Africa to Saudi Arabia, and outbreaks of 
dengue along the U.S.-Mexican border. While it is difficult to predict 
when and where the next zoonotic event will occur, all the critical 
factors are in place to ensure that this new era of emerging zoonoses-
naturally or intentionally caused-will continue or even accelerate in 
the future.

HHS and CDC Role in Agroterrorism Preparedness and Zoonotic Diseases
    The health and security of the United States depends on our 
preparedness against terrorism, including agroterrorism, as well as 
other public health emergencies including the threats of zoonotic and 
vector-borne diseases. These threats necessitate that we improve our 
public health and medical systems so that we can respond with greater 
flexibility, speed, and capacity in coordination with state and Federal 
partners. As SARS and avian influenza have taught us, animal health 
strategies impact public health, and the strategies to protect both 
should be coordinated. Because animals and people are inextricably 
linked, the possibility for exposure to zoonotic diseases is 
unprecedented and presents new levels of threat and vulnerability.
    HHS is responsible for leading Federal public health efforts to 
ensure an integrated and focused national effort to anticipate and 
respond to emerging threats from agroterrorism and zoonotic diseases. 
Within HHS, CDC is gaining a better understanding of zoonotic disease 
emergence, prevention, and control from quality research. By partnering 
with other Federal agencies that focus on animal health and with state 
governments and academic and private institutions, CDC is addressing 
preparedness for an agroterrorism event due to a zoonotic disease.
    Most notably to the public, HHS and CDC are leading the nation in 
the area of avian influenza preparedness. This work fits within the 
framework of the National Strategy for Pandemic Influenza 
Implementation Plan published on May 3, 2006, by the White House 
Homeland Security Council (HSC), and involves ongoing coordination with 
the Department of Homeland Security (DHS) and the Department of State 
(DOS).

National Center for Zoonotic, Vector-Borne, and Enteric Diseases 
(proposed)
    While CDC's activities in avian flu preparedness are the most 
publicized, they represent only one part of CDC's comprehensive 
activities related to agroterrororism and zoonotic diseases. 
Importantly, CDC is proposing a new organizational unit, the National 
Center for Zoonotic, Vector-Borne, and Enteric Diseases (NCZVED), which 
will bring together similarly focused programs and provide national and 
international scientific and programmatic leadership for zoonotic, 
vector-borne, foodborne, waterborne, mycotic, and related infections to 
identify, investigate, diagnose, treat, and prevent these diseases. In 
carrying out its mission, NCZVED will provide leadership, expertise, 
and service in laboratory and epidemiological science, bioterrorism 
preparedness, applied research, disease surveillance, outbreak 
response, policy development, health communication, education and 
training, and program implementation and evaluation. NCZVED will focus 
on the continuing challenge of emerging and re-emerging zoonoses and 
recognize the importance and need to work collaboratively, not just 
across CDC and the traditional public health community but also with 
agricultural, wildlife, and companion animal agencies and 
organizations.

Surveillance and Epidemiology
    A possible target of agroterrorism is the nation's food supply. 
Surveillance of and epidemiologic response to disease are the 
foundation of CDC's activities. Preparedness for naturally occurring 
outbreaks better prepares the United States for the unexpected attack. 
Routine disease surveillance systems coordinated by CDC provide an 
essential early-information network to detect dangers in the food 
supply. In addition, these systems can be used to indicate new or 
changing patterns of foodborne illness and would likely detect early 
cases of an agroterrorism event involving a zoonotic agent. For 
example, PulseNet is a national network of public health and food 
regulatory agency laboratories coordinated by CDC and consists of State 
health departments, local health departments, the U.S. Department of 
Agriculture (USDA), and HHS's Food and Drug Administration (FDA). 
PulseNet plays a vital role in surveillance for and investigation of 
foodborne illness outbreaks that were previously difficult to detect. 
Participants perform standardized molecular subtyping (or 
"fingerprinting") of foodborne disease-causing bacteria which are 
submitted electronically to a dynamic database at CDC.
    This database is available on demand to participants which allows 
for rapid comparison of the patterns. When similar DNA patterns are 
identified for foodborne disease-causing bacteria, scientists can 
determine whether cases of illness are linked to the same food source, 
even if the affected persons are geographically far apart. Outbreaks 
can often be detected in a matter of days rather than weeks. As a 
consequence, CDC can more rapidly alert FDA and USDA about implicated 
food products associated with foodborne illness so that all three 
agencies can take protective public health action.
    PulseNet works in tandem with CDC's Foodborne Diseases Active 
Surveillance Network (FoodNet), a collaboration among state health 
departments, USDA, and FDA that closely monitors the human health 
burden of foodborne diseases in the United States. FoodNet consists of 
active surveillance for foodborne diseases and related epidemiologic 
studies designed to help public health officials better understand the 
epidemiology of foodborne diseases in the United States. These 
surveillance networks have led to improvement in the public's health 
and stand prepared to detect an agroterrorism event in the food supply. 
For example, the incidence of E. coli O157 infections began to decrease 
sharply after 2002, as investigations of PulseNet-identified clusters 
focused attention on more specific controls at the level of ground 
beef. By 2004, the incidence of E. coli O157 infections as measured in 
FoodNet had dropped 42% since the baseline period of 1996-1998, and was 
below the goal for Healthy People 2010. Since much of our food today is 
imported, CDC has also emphasized the need for these systems to be more 
global and to expand to detect more zoonotic agents and diseases.
    CDC also has partnered the public health system with veterinary and 
wildlife health partners at the Federal, state, and local levels in the 
creation of ArboNET, a comprehensive CDC-developed system to monitor 
West Nile virus and other mosquito-borne virus activity in the United 
States.CDC is also working to build public health capacity abroad. With 
the help of FY 2006 Emergency Supplemental funds, CDC is establishing 
an on-ground regional presence with Global Disease Detection (GDD) 
Response Centers in five key global areas: Egypt, Guatemala, Kenya, 
Thailand, and PR China. This is part of CDC's efforts to strengthen 
global surveillance capacity by establishing a network of Global 
Disease Detection and Response Centers strategically placed in each of 
the six WHO regions. Each GDD Response Center will design and implement 
key interventions aimed at the early identification and containment of 
pandemic health threats, whether an act of terrorism or the natural 
emergence of a deadly infectious pathogen like pandemic influenza.

Laboratory Detection
    A public health laboratory infrastructure that can provide test 
results in hours rather than days is critical in the event of a 
biological or chemical attack. The Laboratory Response Network (LRN) 
was created in 1999, by CDC, the Association of Public Health 
Laboratories (APHL), and the Federal Bureau of Investigation (FBI). The 
LRN is a national network of local, state and Federal public health, 
military, food testing, veterinary diagnostic, and environmental 
testing laboratories that provides the laboratory infrastructure and 
capacity to respond to biological and chemical terrorism and other 
public health emergencies. The approximately 150 laboratories in the 
LRN are affiliated with Federal agencies, military installations, 
international partners, and state and local public health departments.
    Since its inception, partnerships with FDA, USDA, and others have 
helped to expand the LRN's capacity. FDA's Center for Food Safety and 
Applied Nutrition (CFSAN) and Office of Regulatory Affairs (ORA) have 
been working with the LRN on developing standardized food sample 
testing methods for use among Food Emergency Response Network (FERN) 
labs, some of which also operate as LRN-member laboratories. FERN is 
jointly operated by FDA and USDA. FERN laboratories would be critical 
in the recovery phase of an event by screening large numbers of food 
samples. In addition, the LRN is also working with USDA's Animal and 
Plant Health Inspection Service (APHIS) laboratory in Ames, Iowa, and 
the veterinary diagnostic laboratory community to act as reference and 
sentinel laboratories for the detection of zoonotic agents.To ensure 
accurate testing of food samples, the LRN and FERN have worked on test 
method harmonization for counter-terrorism purposes and have 
participated in joint proficiency testing exercises. The networks have 
conducted joint exercises for Bacillus anthracis, Francisella 
tularensis, and Shigella spp. in vulnerable food commodities. The LRN 
currently has 97 laboratoriess participating in food testing for select 
biothreat agents, and it has participated in the development of the 
FERN model for food surveillance testing and surge capacity.
    Given that many Category A agents are zoonotic, the LRN has made an 
effort to include the veterinary diagnostic laboratory (VDL) community 
in the expansion of the LRN. The LRN currently includes nine VDLs, 
including the APHIS laboratory in Ames, Iowa. VDLs in the LRN provide a 
link between animal health and human health systems by conducting 
animal health surveillance for zoonotic agents and performing food 
testing. They also provide the LRN with surge capacity testing. The 
American Association of Veterinary Laboratory Diagnosticians is an LRN 
partner that helps recruit VDLs as LRN reference labs.Laboratory 
capacity is further enhanced by Homeland Security Presidential 
Directive 9 (HSPD-9) which calls for nationwide laboratory networks for 
food, veterinary, and plant health that integrate existing federal and 
state laboratory resources and are interconnected. Specifically, HSPD-9 
requires HHS and USDA to develop robust, comprehensive, and fully 
coordinated surveillance and monitoring systems that provide early 
detection and awareness of disease, pest, or poisonous agents. In 
response, CDC, FDA, and USDA created an interagency working group in 
late 2004 to begin the process of coordinating their networks for 
zoonotic disease surveillance. In 2005, the Department of Homeland 
Security formed the Integrated Consortium of Laboratory Networks (ICLN) 
to define the roles and responsibilities of each agency's laboratory 
network. A memorandum of understanding is pending with FERN based on 
roles and responsibilities spelled out in the response matrix of the 
ICLN. The LRN is also working with the ICLN, USDA, and FDA on gap 
analyses of laboratory testing capacity for three biological agent 
scenarios, including avian influenza/human pandemic influenza. HSPD-9 
also calls for the development of a National Veterinary Stockpile 
(NVS). CDC is participating on USDA's advisory committee regarding the 
creation of the NVS.

Select Agent Program
    The Public Health Security and Bioterrorism Preparedness and 
Response Act of 2002 and the Agricultural Bioterrorism Protection Act 
of 2002 (the Acts) require entities to register with HHS/CDC or USDA/ 
Animal and Plant Health Inspection Service (APHIS) if they possess, 
use, or transfer select agents or toxins that could pose a severe 
threat to public health and safety, to animal or plant health, or to 
animal or plant products. In addition to ensuring that laboratories 
safely handle these select agents and toxins, the Acts also require 
laboratories to adopt safeguards and security measures including 
controlling access, permitting the Attorney General to screen entities 
and personnel (i.e., security risk assessments) and establishing a 
national database of registered entities. The Acts also establish 
criminal and civil penalties for failing to comply with the 
requirements of the Acts.
    "Overlap" select agents and toxins are those agents that have the 
potential to pose a severe threat both to public health and safety and 
to animal health or animal products and are subject to regulation by 
both agencies. The Acts require that CDC and APHIS coordinate 
activities in regard to "overlap" select agents and toxins so as to 
minimize conflicts between the regulations and activities carried out 
under the programs, minimize the administrative burden on the regulated 
community, ensure the appropriate availability of select agents and 
toxins for legitimate biomedical, agricultural or veterinary research, 
education or other such purposes, and ensure that information on 
entities possessing overlap select agents and toxins is available to 
CDC and APHIS via a single shared web-based system.

State and Local Preparedness
    CDC's Public Health Emergency Preparedness Cooperative Agreement 
provides funding to states, select metropolitan areas, territories, and 
other public health entities to develop emergency-ready public health 
departments by upgrading, improving, and sustaining their preparedness 
and response capabilities for "all-hazards" public health emergencies, 
including terrorism, pandemic influenza, and other naturally-occurring 
public health emergencies. These emergency preparedness and response 
efforts support the National Response Plan and the National Incident 
Management System.
    In addition, the Centers for Public Health Preparedness (CPHP) 
program was initiated by CDC in 2000, to strengthen terrorism and 
emergency preparedness by linking academic expertise to state and local 
health agency needs. This unique program brings together colleges and 
universities with a common focus on public health preparedness to 
establish a national network of education and training resources. CPHP 
Network activities enhance collaboration across the CPHP Network and 
with CDC, minimize duplication in development of materials, and 
maximize outreach of existing resources. All 50 states, plus the 
District of Columbia, Puerto Rico, and the Virgin Islands are served in 
some capacity (with at least one CPHP activity) through the 27 CDC-
funded Centers located within accredited Schools of Public 
Health.Several CPHPs have expertise in agroterrorism-related work. For 
example, Iowa State University College of Veterinary Medicine's Center 
for Food Security and Public Health (CFSPH) was founded in July 2002, 
as a Specialty Center in Public Health Preparedness for Veterinary 
Medicine and Zoonotic Diseases. CFSPH integrates veterinary medicine 
and expertise in zoonotic diseases and public health with the ongoing 
activities and needs of preparing for emerging diseases.

Preparedness Goals
    CDC is adapting to meet the challenges presented by terrorism and 
emerging diseases. New strategies, innovations, and goals bring new 
focus to the agency's work, allowing CDC to do even more to protect and 
improve health. CDC has developed four major overarching goals one of 
which is People Prepared for Emerging Health Threats. This goal will 
address scenarios that include natural and intentional threats with an 
emphasis on prevention and response to chemical, radiological, and 
emerging threats including zoonoses (e.g., influenza, anthrax, and 
plague).

Collaborations with Zoonotic Partners--World Organization for Animal 
Health
    CDC was recently selected to become a World Organization for Animal 
Health (Office International des Epizooties, OIE) Collaborating Centre 
for Emerging and Re-emerging Zoonoses. In this role, CDC will be better 
equipped to forge stronger ties between the public health and animal 
health sectors to detect, control, and prevent zoonoses.In addition, 
CDC will send a veterinary public health expert to OIE for a temporary 
assignment in fall 2006, to identify the most likely locations for 
"twinning" of laboratories, with an aim at stronger integration between 
animal and human health expertise, as well as establishment of longer 
term collaboration between selected locations in developing countries 
and well-established OIE Reference Laboratories. CDC will also support 
a similar assignment to the United Nations' Food and Agriculture 
Organization in Italy.
    CDC is also seeking ways to build the veterinary public health 
workforce internationally in countries for which CDC has traditionally 
recruited physicians and public health epidemiologists for applied 
public health training. CDC will incorporate fellowships for 
veterinarians into its existing Field Epidemiology and Laboratory 
Training Programs (FELTPs). Also, the director of CDC's International 
Emerging Infections Program in Thailand will work with the OIE regional 
representative to explore the potential for building relationships in 
the region between CDC, Ministries of Health, and Ministries of 
Agriculture.

World Health Organization
    CDC will also send a staff person to the WHO for a temporary 
assignment in fall 2006, to assist WHO's Department of Food Safety, 
Zoonoses and Foodborne Diseases in determining the nature and extent of 
the assistance needed by Member States to meet the obligations of the 
International Health Regulation (2005) for animal- and food-related 
emergencies. The assignee will work with staff in charge of WHO 
surveillance systems to assess incoming reports of zoonotic and 
foodborne disease outbreaks and to identify the assistance needed such 
as increased surveillance, information exchange, technical cooperation, 
and capacity building.

American Association of Veterinary Medical Colleges
    CDC works with the American Association of Veterinary Medical 
Colleges on curriculum development and fellowship opportunities to 
better prepare the veterinary workforce for addressing the animal-human 
health overlap. Fourteen veterinary colleges currently have public 
health programs and new courses are being developed that train and 
prepare veterinarians for bioterrorism, public health, and biomedical 
research careers. In addition, veterinarians serve in many roles in the 
public health workforce at CDC including participating in CDC's 
Epidemic Intelligence Service and Emerging Infectious Diseases 
Laboratory Fellowship Program.


    Integrating the food safety and food defense efforts of Federal, 
state, and local public health, veterinary and food safety officials is 
of critical importance. CDC is collaborating with FDA, USDA, and the 
Council of Association Presidents to raise awareness of current and 
emerging issues and to promote coordination. The Council comprises the 
ten leading public health, veterinary, and food safety associations 
that work the spectrum of food safety and food defense, from animal 
feed to human health. The collective expertise and collaboration of 
these associations are essential to develop and implement integrated 
efforts, provide needed training, and build the multi-disciplinary 
capacity necessary to address food-related emergencies.
Conclusion
    At this time, the scope, scale, and consequences to human and 
animal health from zoonotic and agroterrorism threats are 
unprecedented. Preparing for zoonotic threats requires a merging of 
responsibilities at the animal-human interface, and this preparation is 
leading to significant progress in CDC's ability to prepare for and 
respond to an agroterrorism event. Frequent collaboration on outbreak 
detection and response and close coordination among Federal and State 
food safety, public health, law enforcement, and intelligence-gathering 
agencies have resulted in enhancement to the nation's public health 
systems. These systems improve our nation's ability to respond to 
naturally occurring events and prepare the United States for a possible 
agroterrorism attack. Thank you for this opportunity to discuss our 
preparedness efforts.. I would be pleased to respond to any questions.

    Mr. Linder. Thank you, Dr. King.
    Dr. Knipling, you mentioned modern tools and new 
technologies in two different sentences for detecting these 
kinds of things. Explain what you mean by that.
    Dr. Knipling. These are largely based upon our new 
understandings of molecular biology, which are then rooted in 
genomics, the gene identification and sequencing of organisms 
and pathogens, and then very sensitive and rapid detection 
technologies based upon that knowledge that distinguish between 
species and strains and mutations and the like.
    Mr. Linder. Are you surprised that we have not seen much of 
the avian influenza outbreak lately?
    Dr. Knipling. No, not surprised. We have a long experience 
with avian influenza, much longer than most realize, over 40 
years of experience in this country with the low pathogenic 
strains.
    Mr. Linder. H5N1?
    Dr. Knipling. We have a tremendous base of knowledge. There 
are both low pathogenic and high pathogenic strains of H5N1 and 
in fact, the U.S. has experienced the low pathogenic strains on 
a number of occasions over 40 years. So we have a lot of 
experience, we already have the capability to prevent it and I 
think the fact that we have not seen it in this country is 
testimony that that technology is already in place. Yet, we 
need to remain vigilant for the new challenges that come our 
way.
    Mr. Linder. You mentioned anthrax spores infecting cattle. 
Does that--if humans eat that beef, does that bother them?
    Dr. Knipling. Potentially. Anthrax contamination in cattle 
is actually quite common, it occurs every year, there are 
several outbreaks in the northern great plains right now this 
year. It is quite common. It is very rare for humans to detect 
it from infected cattle, but yes, it would be theoretically 
possible. We do know that cooking and proper handling of meet 
would deactivate the pathogen. But under improper conditions, 
it could be a rare case of infection.
    Mr. Linder. Dr. Runge, when you talk about one medicine, 
are you talking about a broadcast kind of vaccine that is based 
on DNA as opposed to one drug/one bug?
    Dr. Runge. When we refer to one medicine, Mr. Chairman, we 
are really talking about one approach, regardless of where the 
organism arises from. The issue of a vaccine that is sort of a 
universal vaccine has been around for awhile. The vaccine 
experts that I have spoken with about it are not hopeful of 
anything soon, although it is still very much on the radar 
screen of vaccine researchers.
    Clearly, the opportunity to enhance and revamp the way we 
do vaccines in this country has been made possible by the 
appropriation for avian flu, the $4 billion that has been made 
available. And frankly, the HHS and the vaccine industry have 
made great strides in a very short amount of time in improving 
their systems over the next few years.
    But as far as a universal vaccine, I am not aware that that 
is around the corner.
    Mr. Linder. Dr. King, you talked about collaborating with 
public health agencies. Are you doing anything to collaborate 
with international corporations, which most of this flu stuff 
comes, for example, out of southeast Asia and a lot of 
international corporations have plants in China and southeast 
Asia. If they have a significant uptick in sick leave, are we--
is CDC getting on that?
    Dr. King. We are already emphasizing sort of a new 
marketing strategy where we really bring in business. CDC now 
has a new concept of a Business Round Table where we actually 
bring business community CEOs in to talk about how public 
health really affects the bottom line of their industries. In 
terms of large agribusinesses, that is very true, whether in 
Brazil or southeast Asia, they are very much in tune to 
biosecurity. We learn from each other, and I think the public/
private partnership is an area that we need to look at more but 
CDC is actually doing that now and bringing CEOs from these 
corporations and getting more engaged with them as partners.
    Mr. Linder. What kind of response network do you have for 
zoonotic or animal infections or problems?
    Dr. King. Well, I mentioned the LRN system, the Laboratory 
Response Network, which was really started as a public health 
human entity. It is now being expanded to environmental 
laboratories, food laboratories and veterinary diagnostic 
laboratories. So we now see these communities starting to be 
pulled together. The pathogens really do not care what their 
host is, whether it is four-legged or two-legged. Because they 
are zoonotic, we have to be prepared to have veterinary 
diagnostic labs, veterinary practitioners as well as physicians 
and hospitals, all on the alert and sharing information. And 
that is partly what the LRN does.
    Dr. Runge. Mr. Chairman, could I also make a comment about 
this as well?
    Mr. Linder. Go ahead.
    Dr. Runge. DHS, through its Sector Coordinating Council, 
which basically all the owners of the infrastructure are part 
of the Sector Coordinating Councils and the Government 
Coordinating Councils which are the government entities that 
are associated. One of the critical sectors as you well know is 
food and agriculture and we have a very robust private sector, 
public/private partnership essentially in these councils.
    And with respect to surveillance from overseas cases and so 
forth, the reason that we are standing up the National 
Biosurveillance Integration System is to take advantage of 
various sources, whether it is the armed forces military 
intelligence command, whether it is the CDC, whether it is Bio-
Sense which CDC operates, Bio-Watch, which we operate; we need 
to integrate all of those surveillance activities to make sure 
that we can see early signs of such an outbreak.
    Mr. Linder. Thank you. I believe that the State Department 
is talking to the CDC now about getting some medical officers 
at the embassies some epidemiology training as they go 
overseas, and I think all that is helpful.
    Thank you all.
    The gentleman from Georgia, Mr. Scott, for five minutes.
    Mr. Scott. Thank you very much, Mr. Chairman.
    Let us start with the nature of our food chain, let us 
start with the imbalance of our export/import ratio of our 
trade balance for agricultural products. As you know, the 
United States is going down in the level of exports. The amount 
of exports that we export to the world is almost down now from 
17 percent to almost like 11 percent. Meanwhile our import of 
foodstuffs into this country is going up to about 13 percent. 
Specific crops and products, for example, bananas, tomatoes, 90 
percent of those food lines comes from someplace else. It seems 
to me that if we are going to really be prepared for this, we 
have to put our minds into the thinking of these terrorists. We 
need to learn, for example, from what happened in London. Who 
would have thought a liquid being made a bomb.
    Our efforts are on transportation, but these people come 
here at one checkpoint, we can check them. Our food chain is 
all over the place and I am wondering if on one point, I would 
like an answer, what are we doing with our international 
trading partners? It seems to me at the point of origin we need 
to have some protective measures in place. How are we moving in 
that direction, would be my first one. Either one of you can 
answer that but I think that, Dr. Runge, you being the Homeland 
Security representative here, you might want to start that.
    Dr. Runge. I will quickly defer to the two experts I have 
on either side of me, one whom I believe used to run the Animal 
and Plant Inspection Service. As you know, Congressman Scott, 
part of the APHIS came over to DHS when the department was 
stood up, and this has to do with the border inspections. 
Congressman Barrow referred to this as well.
    We work very, very closely with USDA to make sure that 
there is a systematic approach towards food and agricultural 
inspections at the border as well as traveler security.
    That having been said, I could not agree with you more that 
the point of export is also a very, very good place to do 
security checks and frankly, with the amount of cargo coming 
in, it is daunting, to make sure that every single container 
that might contain something bad is in fact checked.
    The approach that DHS has taken to such cargo security is 
in fact looking at very large threats, and in fact, the things 
that worry the Secretary and I the most are nuclear security 
and biosecurity. I believe that we will be putting more and 
more attention towards that in the months to come.
    With respect to the specifics, I will defer to these 
experts.
    Dr. Knipling. Well, I would just acknowledge that USDA does 
have protocols in place. As was pointed out by Dr. Runge, some 
of those responsibilities shifted to the Department of Homeland 
Security, but some of those protocols at that time were 
continued by that agency. The two agencies worked together.
    I do know that there are regulatory protocols on both the--
at the point of export, pre-inspection, if you will, and then 
again at the point of import to the United States. This varies 
according to the country, the commodity, the time of the year 
and so forth, there are many variables and the problem is one 
size does not fit all.
    Mr. Scott. Let me ask you specifically, if I may, 
Afghanistan, Pakistan, that mideast region, those nations, 
there are products that we bring in and we have some level of 
trade with those. Specifically are you satisfied with the level 
of checks that we have with those specific countries in the 
middle east?
    Dr. Knipling. I am really not familiar with the specifics 
there and I would hesitate to comment on that specifically. 
Certainly would seek to find answers to your questions in that 
regard.
    Mr. Scott. Okay. One other thing, Dr. King, before my time 
slips away from me. You mentioned in your testimony that the 
CDC is addressing preparedness for an act of terrorism event 
due to a zoonotic disease. Can you give us what that event 
might be and can you give us some specifics on that?
    Dr. King. There are a number of agents that we continue to 
monitor and watch and there are groups of classifications of 
agents that we monitor and know. Dr. Knipling talked about a 
disease such as Rift Valley, which has similar--could have a 
similar origin to what we saw with West Nile virus moving from 
Africa to the mideast. It is mosquito-borne and we have in this 
country competent vectors, mosquito-vectors, that are ready to 
carry this disease that is zoonotic in nature. And so part of 
the preparedness is to understand those mechanisms, to not just 
look at our borders' end, but also look globally because we 
know that a problem in one country can be our problem in 24 
hours. We know what those diseases are, and we are working with 
the World Health Organization and others. In terms of more of a 
global monitoring system that really came out during the in 
SARS outbreak, that was the real lesson learned during SARS, 
which was the ability to put together a global system rapidly.
    Mr. Scott. Have we done any research on what would be the 
most logical event? Have we put any scenarios in place? We do 
that--I am on the national security group and we do that war 
games in Carlisle, Pennsylvania. Do we have anything working 
where we are into this bioterrorism area where we have logical 
scenarios that are going on, to our best knowledge, to be 
prepared?
    Dr. Runge. Yes, sir, we do. I might also say that, just as 
Chairman Linder was speaking earlier about prevention, the 
global prevention effort involving not only looking at things 
but looking at people and trends, we have a relationship with 
our own information and analysis, our intelligence sector at 
DHS, to address biosecurity issues, and we do exactly that.
    We also have 15 planning scenarios that have been 
discussed, there are five that deal with biologic events--
smallpox, anthrax, yersinia pestic and pandemic influenza, and 
foot and mouth disease. We are in the process of identifying 
resources to do specific planning and play book development 
against those four scenarios.
    On top of that, we also--there are things that keep us up 
at night that are not part of those scenarios that are in fact 
based in our best knowledge.
    Mr. Linder. The time of the gentleman has expired.
    Mr. Scott. Thank you, Mr. Chairman.
    Mr. Linder. The gentleman from Evans wish to inquire?
    Dr. Norwood. Yes, sir. Thank you, Mr. Chairman.
    I have two questions, gentlemen, and I hope maybe each of 
you can respond to it, but prior to that, inspections at the 
border. Dr. Knipling, can you give me some idea how much 
poultry and how much beef we import into this country on our 
southern border?
    Dr. Knipling. I do not have those statistics, I do not 
know.
    Dr. Norwood. Anybody know?
    Mr. Linder. Would you be willing to get those answers and 
send them?
    Dr. Knipling. Yes, of course.
    Mr. Linder. Thank you.
    Dr. Norwood. Really what I am asking is how much of that is 
inspected, what percent of that beef and chicken that comes in. 
It is great to have all these programs but the bottom line is 
are we doing it. And I would really very much like to know 
that.
    Avian bird flu, gentlemen, is pretty important to us, at 
least it is to me. I have got a whole lot of chickens in my 
district and in my state and that avian bird flu tends to make 
me worry just a little bit. I know we are doing great research 
here in Georgia, the Department of Agriculture Southeastern 
Poultry, which I am happy about of course, and the University 
of Georgia Ag Research Center. Who else though is doing 
research on avian bird flu around the country or around the 
world? Or is it just us?
    Dr. Knipling. In addition to the USDA ARS efforts right 
here at Athens, Georgia, there is a network of the land grant 
universities, including the University of Georgia that has 
capabilities and they are working together under an umbrella 
projects.
    There are research efforts also in other countries around 
the world. Again, I do not have the specifics but it is a very 
close network. Our scientists here at Athens, USDA scientists, 
are very well connected. They themselves are internationally 
recognized, providing leadership to this worldwide effort. But 
also we do in fact benefit from sharing knowledge with other 
countries, other researchers.
    Dr. Norwood. So there is a sharing process. Gentlemen, 
either doctor want to respond to that, have a comment about 
that?
    Dr. Runge. Dr. Norwood, I am not aware of who all 
specifically is doing this worldwide. However, the Science and 
Technology Director at DHS does have centers of excellence in 
universities, particularly at Texas A&M, which are doing 
various studies of not only avian influenza, but also--
    Dr. Norwood. Now are they talking to your people?
    Dr. Runge. Yes, absolutely.
    Dr. Norwood. That is sort of what I am trying to find out.
    How much money are we spending perhaps as a nation to 
prevent an attack through poultry, a terrorist attack?
    Dr. Knipling. Specifically on the avian influenza, we have 
a base program prior to this fiscal year of about $2 million. 
We did receive the emergency avian influenza supplemental, USDA 
received close to $90 million there, of which roughly 10 
percent is directed toward the research function and the 
balance for some of these international preventive, training, 
diagnosis activities.
    We also have pending in our fiscal 2007 budget request some 
significant new resources as well. So we are rapidly 
accelerating the activity in this area.
    Dr. Norwood. Dr. Runge, do you have--we were talking about 
vaccines a minute ago. Do we have a vaccine for avian flu?
    Dr. Runge. We have a vaccine for--we have a limited number 
of vaccine doses for the virus currently that causes avian flu, 
that would be given to humans. There are vaccines that could be 
given to birds as well, and in fact other countries do 
vaccinate their birds. We do not.
    Dr. Norwood. If we had an outbreak, can we protect America?
    Dr. Runge. Well the hard truth of this is that it takes 
time to develop a specific vaccine using a specific virus that 
would make people sick. So we actually have to wait until 
people get sick before we can harvest the virus and begin 
vaccine production, which does have a lag time because of the 
relatively antiquated technology of our vaccine manufacturers, 
which is why I think Congress stood up to the plate and 
actually stimulated the development of more cell-based and 
perhaps DNA-based vaccine manufacturing.
    Dr. Norwood. With your permission, Mr. Chairman, I will 
have some written questions on that very subject.
    And lastly, one thing that I am interested in is which 
agency is in charge? Who is the general? Should we have a 
zoonotic agent attack in this country, who is in charge?
    Dr. Runge. I will be happy to answer that, sir. It sounds a 
little arcane, but USDA has been handling the zoonotic agent 
outbreaks in this country for a long, long time and doing a 
very good job, not just federally, but their state partners who 
put a tremendous amount of resources into this, are very well 
equipped to deal with things on the state level. Particularly 
this state is way, way out in front of most states in doing so.
    Once such an outbreak would escape the ability of one 
federal agency or state agencies to deal with it and a request 
for assistance at the federal level would be made, it would 
become an incident of national significance in which case the 
President is always in charge, but his designee is the 
Secretary of Homeland Security, and Secretary Chertoff would be 
in charge of an incident of national significance.
    Dr. Norwood. So if it is animal or human, the Secretary 
would be in charge.
    Dr. Runge. If it escapes the ability of the USDA to manage 
it, if it crossed inter-agency jurisdictions or if a state 
asked for federal assistance, then it may very well be declared 
an incident of national significance.
    Dr. Norwood. Have we done anything in terms of training 
with an anticipation of that? For example, disaster people do 
training all the time, the Army does training all the time, 
Marine Corps does training all time. Have we ever done anything 
in this country to be prepared for a zoonotic attack where all 
agencies had to be coordinated, where Homeland Security 
Secretary was in charge?
    Dr. Runge. We have done so with respect to avian influenza, 
not just in birds but after it would cross over into the human 
species. We are also anticipating a table top exercise in 
fiscal year 2007 on foot and mouth disease.
    Mr. Linder. Did you not have a table top exercise in the 
White House?
    Dr. Runge. Yes, sir.
    Mr. Linder. On avian influenza?
    Dr. Runge. We did indeed, in December, cabinet level.
    Dr. Norwood. Tell me how you do that. How did you have that 
in the White House?
    Dr. Runge. It is actually over in the Executive Office 
Building in one of those big pretty rooms.
    Dr. Norwood. I am talking about a big scale thing, I am 
talking about way they train, for example, for a disaster if 
Augusta, Georgia is hit by a bomb. We do training alerts for 
that.
    What have we done about that to--the military will tell you 
right quick you are not worth your salt if you do not train, 
train, train.
    Dr. Runge. Absolutely. I must step back a second. The first 
thing was that the Secretary of HHS and a representative, 
mostly me and my colleagues in Preparedness, visited all 50 
states and territories to meet with state and local officials, 
folks from the faith community, the emergency response 
community, the schools, et cetera, to offer them resources and 
to walk through the necessity to do exactly what you are 
talking about, Dr. Norwood, and that is to plan on the local 
level. Preparedness ultimately is a local event. As we saw in 
Katrina and other disasters, the local response is people's 
preparedness. The federal government can step in and do certain 
things within its limitations, but you are exactly right, in 
effect, the ability to plan, train and resource appropriately 
is in fact a very, very local exercise.
    Dr. Norwood. Mr. Chairman, unanimous consent for just 30 
seconds.
    Dr. King and Dr. Knipling, are you real excited about 
Homeland Security being the lead dog in this? No offense.
    Dr. Knipling. As Dr. Runge said, we are very closely 
connected. If there were an outbreak of avian influenza in this 
country, it probably would show up first in bird species, 
either domestic poultry or wild birds. USDA, in connection with 
the Department of Interior with respect to wildlife, would have 
a primary first role, but we are very well connected for the 
handoff. There is a lot of overlap between animal infection and 
human infection and we would both be involved at that 
interface.
    Dr. King. Yes, sir, I do not really care who is in charge, 
I want to make sure it is an effective response and if it is 
Homeland Security, we are certainly players in that, 
participate and involved in the planning. And we would have no 
problems moving ahead that way.
    Dr. Norwood. A lot of people are concerned about who is in 
charge of our borders.
    Mr. Linder. The time of the gentleman has expired.
    The gentleman from Athens wish to inquire?
    Mr. Barrow. Yes, sir, thank you, Mr. Chairman.
    First of all, Dr. Runge, I heard you respond to Dr. 
Norwood's questions about who is taking primary responsibility 
for ag inspections and you said the USDA has been way out in 
front for a long time. And I think I heard you acknowledge that 
the Georgia Department of Agriculture has also been in the lead 
in this area. Can you help me understand how we compare to 
other states in that regard? I want to know more about that.
    Dr. Runge. You know, I will get myself in trouble if I 
start comparing states. Let me just again offer that--and 
actually I met this morning with some folks from your state's 
leadership on exactly this topic. I think you are going to hear 
some more about this in the next panel as well.
    I think because you are number one in poultry production, 
the issue of agrodefense is very, very, very appropriately of 
concern to Georgians. You are first in agrosecurity educational 
programs. There is a curriculum that is actually floating 
around this room right now that is certainly way out in front 
and could be a national model. You already have a response 
capacity built into your state government integrating public 
health, agricultural inspections and response with the public/
private partnership. You have got agricultural response teams 
that they call SART teams. There really has been a tremendous 
amount of activity. Could be because your Governor is a 
veterinarian. I would like to think that every state could do 
that.
    Mr. Barrow. Well, it could be because we have got some good 
leadership in the Ag Department on behalf of Dr. Myers who is 
the co-author of Dr. Brown's report and who is Assistant 
Commissioner for Agriculture in charge of the animal industry 
and also on behalf of Tommy Irvin, I want to thank you all for 
acknowledging what they are doing here right and let us see if 
we cannot get others to follow examples that we are setting 
here.
    I want to follow up on something that Charlie Norwood asked 
about, another thing he asked about, that concerns me.
    He says you work real hard to coordinate your efforts with 
USDA, to make ag inspections more systematic. What I want to 
know is what actually has been done to make them any different 
since 9/11. Dr. Norwood tried to--he moved into this area by 
asking how much of the ag imports are being inspected. We all 
know, for example, that only something like five percent of 
containerized shipping is getting any kind of inspection before 
it gets to this country and it is not being inspected until it 
gets to this country. The five percent that is being inspected 
is being done in places in ports like Savannah, not at the 
ports of disembarkation--embarkation.
    I am concerned about how ag inspections are being done 
differently now. Can anyone--I heard Dr. Norwood ask and no one 
could answer how much is being inspected. Can anyone tell us 
how much more is being inspected, in terms of a percentage of 
the whole now as compared to how much was being inspected 
before 9/11?
    Dr. Knipling. I do not have that information, but again, I 
will seek to--
    Mr. Barrow. Dr. Runge, can you zero in on that information 
and get that for us as well?
    Dr. Knipling, you said that DHS has worked hard with your 
agency to make sure that inspection protocols are in place. It 
is one thing for protocols to be in pace and it is another for 
protocols to be being followed, actually being implemented. Can 
you tell us whether or not the protocols that have been adopted 
by DHS in coordination with your Department are actually being 
implemented, actually being followed?
    Dr. Knipling. I guess--
    Mr. Barrow. It is one thing to agree that this is the 
procedure we ought to follow and it takes a long time to agree 
on what the procedure we ought to follow ought to be, but then 
it takes even more time to actually get around to doing it. How 
are we coming on that score?
    Dr. Knipling. Yes. Again, I cannot speak authoritatively on 
that specific issue.
    Mr. Barrow. Okay. Well, let me direct your attention, as I 
did in my opening statement, to the report of the GAO that was 
issued earlier this year. Are you all familiar with the GAO's 
scoring of our efforts in this regard? Anybody familiar with 
that report?
    Dr. Runge. I am not, sir.
    Mr. Barrow. One thing they said is that the Department of 
Homeland Security has not developed performance measures for ag 
inspections. We are essentially doing things the way we were 
doing it before, the way the USDA was doing it before the war 
on terror was really launched in 9/11, against us.
    And the question I have is are there performance measures 
for ag inspections that have been adopted? Again, it gets back 
to my question, are we doing anything differently in the area 
of ag inspection now as compared to the way we were doing it 
back then? Can anybody answer that now?
    Dr. Runge. Let me just say, I am not sure what the right 
number is. I know that the protocols are designed to make sure 
that there is a systematic, not necessarily random, but a 
systematic approach to inspections at the border. I would be 
very surprised if our Customs and Border Protection folks were 
not adhering to those assiduously. They are a bit nimble when 
it comes to turning up surveillance under certain conditions 
like the importation of birds and bird parts. They certainly 
have become more attuned to smuggling of live birds that show 
up in live bird markets, which are then in turn inspected by 
the USDA.
    So I have no evidence to suggest that the protocols needed 
a complete transformation after 9/11, but we will certainly be 
happy to talk to you some more about that.
    Mr. Barrow. One of the concerns that I would have would be 
that if there was going to be an attack launched against us, it 
would be in the area of bulk imports, not in the exotic, weird 
stuff, it would be hiding in plain sight in the massive 
quantities of stuff that we consume in massive quantities. I 
would like to know more about that.
    Also the GAO said that there are no staffing performance 
measures, no real measures to decide how many people we need in 
order to carry out these inspection responsibilities. No 
standards have been adopted to tell us how many folks we need 
in order to do this work in this heightened area of concern. 
When are we going to have some staffing, some performance 
levels as far as staffing is concerned?
    Dr. Runge. I will certainly share that concern with 
Commissioner Basham, and we will get back to you on that, sir.
    Mr. Barrow. All right, sir. I see that my time is running 
out, Mr. Chairman, thank you.
    Mr. Linder. The time of the gentleman has expired. All time 
has expired. We want to thank Dr. Knipling, Dr. Runge, Dr. 
King.
    Mr. Scott. Could I ask unanimous consent to ask one final 
question that I think is appropriate before we leave?
    Have we had an event? Have we come close to one? What is 
our threat level as far as bioterrorism or an attempt at our 
food chain? Do we have evidence that Al Qaeda, anybody, has 
made an attempt to impact our food chain, with a terrorist 
attack on our food chain?
    Dr. Runge. Congressman Scott, we have no evidence that that 
has occurred. That does not mean that we are not ever vigilant 
in this. I believe someone mentioned Secretary Thompson on the 
way out making the speech. It certainly is one of Secretary 
Chertoff's highest priorities in terms of biodefense. We are 
doing a large number of activities related to biodefense, many 
of which the Chairman is very familiar with with respect to 
threat characterization and so forth. We would be remiss if we 
were not vigilant about this particular topic. And in fact, I 
would like to assure you that we are.
    Mr. Scott. Do you recall in the report, coming through our 
southwestern borders, so far there have been about 1600 
individuals of Islamic or middle east--our borders are being 
used, drug trafficking, illegals and so forth. To what extent 
is your knowledge, are you aware of that? Do you have any 
substantial information that says our borders are being used as 
a way of getting individuals in? I cannot recall the incident, 
but we had somebody appear before our National Democratic Group 
on National Security, who stated that certain individuals came 
through and they had on them some composition of what it takes 
to transport mad cow disease.
    Dr. Runge. I certainly am not prepared to discuss that 
today, Congressman, but I will point out that Secretary 
Chertoff yesterday had a press conference about the borders and 
cited a number of statistics showing tremendous progress over 
the last six to 12 months on the number of individuals with 
respect to catch and release versus catch and return. The issue 
that he presented yesterday was asking for Congressional help 
with some particular court orders that DHS is laboring against 
with respect to having to release non-Mexican individuals at 
the southern border.
    I appreciate your attention to that as well.
    Mr. Scott. But could you--would you confirm that report 
about 1600 individuals of Islamic beliefs or faith were caught 
coming through our southern borders?
    Dr. Runge. I cannot confirm that.
    Mr. Scott. Thank you.
    Mr. Linder. Thank you all. I want to just remind you, Jeff, 
you and I have talked about this several times, that you have 
told me and the Secretary has told me that the greatest 
catastrophic events would be nuclear or biological and we spend 
one out of eight dollars on airlines. It is time to get some 
proportionality here.
    Thank you all.
    Dr. Runge. Thank you, sir.
    Mr. Linder. If I can invite our next panel to come forth--
Dr. Brown, Dr. Williams and Mr. Black.
    I would like to now welcome the three distinguished 
witnesses on the second panel. Dr. Corrie Brown from the 
University of Georgia. She is the Coordinator of the 
International Veterinary Medicine and Professor of Veterinary 
Pathology at the University of Georgia College of Veterinary 
Medicine and the former director of the Plum Island Animal 
Disease Center.
    Dr. Paul Williams is the Special Assistant to the Director 
of the Georgia Emergency Management Agency and is an expert in 
emergency response and agroterrorism issues.
    Mr. Black, Gary Black, is a current member of the Georgia 
Rural Development Council and is former president of the 
Georgia Agribusiness Council. Welcome all.
    Dr. Brown.

   STATEMENT OF DR. CORRIE BROWN, JOSIAH MEIGS DISTINGUISHED 
 TEACHING PROFESSOR, SCHOOL OF VETERINARY MEDICINE, UNIVERSITY 
                           OF GEORGIA

    Dr. Brown. Thank you for the opportunity to be here. I am a 
professor of pathology in the College of Veterinary Medicine. I 
would like to correct a statement that you made. I was not 
director of the Plum Island Animal Disease Center, but I was 
the chief pathologist there.
    Mr. Linder. Well, I would have made you director if I could 
have.
    [Laughter.]
    Dr. Brown. I am not sure I want it. While I was there, I 
worked on several of the diseases that are the subject of this 
hearing. Foot and mouth disease, rinderpest, classical swine 
fever, Rift Valley fever, Newcastle, avian influenza.
    I came to the University of Georgia in 1996. I continue to 
interact with USDA, FDA, DHS and Department of Health and Human 
Services.
    I am the witness here, but I would like to say that what I 
am going to talk about has to do with what we have done in the 
State of Georgia. I gathered information for my testimony from 
the very synergistic, multi-disciplinary team that we have 
here, the Committee on Agriculture and Food Defense. Lee Myers 
is the Chair of that Committee, so she is the co-author of the 
testimony. Many of the members of that committee are in this 
room and I want to acknowledge them for all of their help and 
all the hard work that we have done over the last few years.
    Okay, let me start with some definitions. The title of this 
hearing is ``Agroterrorism's Perfect Storm: Where Human and 
Animal Diseases Collide''. You know, I am not sure that is 
accurate. Let us define zoonotic disease. This is any disease 
that can be transferred from animals to humans. Of the 1400 
diseases of people, 840 are zoonotic. So most human diseases 
are zoonotic.
    Then we have got the bioterror agents, the CDC list, 
between 26 and 30, depending on how they are clustered. Almost 
all of those are zoonotic, but that is a small subset of 
overall zoonotic diseases.
    Then we have agroterror. Agroterror is not about making 
people sick, it is about the economy. Agroterror is either 
introducing diseases into livestock that will destroy the 
economy of the agricultural sector or it is about introducing 
something into the food, which is going to cause hysteria and 
economic impact.
    So if we look at examples of agroterror of livestock 
diseases--foot and mouth disease, rinderpests. Foot and mouth 
disease in the UK, $12 billion. Classical swine fever in the 
Netherlands, $2 billion. Newcastle disease in California, $1 
billion. Those are all real, all accidental introduction, and 
not a single human being sick.
    Then we have got other diseases like Rift Valley fever 
which was mentioned earlier, in the Arabian peninsula, caused 
both agricultural problems and human illness, also accidental--
big impact.
    And of course, highly pathogenic avian influenza, all over 
southeast Asia, both agricultural impact and human disease.
    The other aspect of agrocare is food contamination. It has 
happened. It has happened many times accidentally. Big outbreak 
with ice cream, big outbreak with hamburgers, big outbreak with 
deli meat. All accidental.
    We do know that there has been many instances of 
intentional contamination of food. As was mentioned earlier, 
with our systems of agriculture, they are so vast, they are so 
integrated, something gets in, it is going to be all over. This 
is with both livestock diseases and food contamination. And as 
people mentioned earlier, terrorists know this, they know it 
can happen, they know how easy it is, they know it will be big 
impact.
    The bottom line is, as Representative Norwood said--excuse 
me, as Congressman Scott said--an ounce of prevention is worth 
a pound of cure. We need to be able to detect the first 
instance of an incursion and we need to be able to respond. 
This is just as true for accidental as it is for intentional 
incursion. And we are at great risk of accidental incursion 
just because of globalization. So we may as well prepare for 
the accidental as well as the intentional.
    All emergencies are local. I believe, having worked with 
both the central government and now working at the state level, 
that there is a perception at the central level that the 
federal government is going to come in and fix everything. That 
is not true. I see it from a state perspective that everything 
happens locally. We have to get people on the ground prepared, 
aware, able to respond rapidly. The amount of damage that we 
are going to feel is directly proportional to how long it takes 
to detect the problem and get rid of it.
    Okay, we have to respond. So we are fortunate in that the 
State of Georgia, ag and food defense has been made a priority, 
a state priority. Our state leaders have seen to that and that 
has allowed us to take advantage of the funding that comes from 
DHS to the states. And you can see in the testimony on page 6 
all of the accomplishments that our committee has done. 
National curriculum on agrocare, agrosecurity. We have trained 
2500 people in the state.
    We have the state agricultural response teams in place. We 
have over 500 people trained in incident command systems. We 
have done exercises. But no state stands alone. Georgia can be 
very well prepared, but if say Alabama is not, then both states 
are at risk.
    So what I would like to leave you with are recommendations 
which is in the testimony on the last page. I see three gaps.
    The first gap is we need a comprehensive national strategy 
for agriculture and food defense. We loved HSPD-9. That was 
wonderful, it was an initial road map. But there has not been 
anything substantive to follow up with that. No national 
strategy. It has to include state and local governments.
    The second gap is that food and agriculture defense has not 
been identified by DHS as one of the national priorities. 
Consequently, many states cannot take advantage of it unless 
they select that as an elective, so that leaves many gaps.
    And the third thing is that funding for states is really 
inconsistent. Most of it comes from USDA and it tends to be 
fairly meager. And for terrorism money that went to states, of 
a billion dollars, only five percent was for agriculture and 
food defense. So I think we are at great risk. We may need some 
sort of system where states can use money regionally, so that 
states can work together and not everyone has to reinvent the 
wheel.
    Thank you.
    Mr. Linder. Thank you, Dr. Brown.
    Dr. Williams.
    [The prepared statement of Dr. Brown follows:]

               Prepared Statement of Dr. Corrie C. Brown

Corrie Brown:
    I am a veterinary pathologist and focus in infectious diseases that 
affect livestock, especially those diseases that are not present in the 
United States. Subsequent to attaining my PhD at the University of 
California at Davis, I spent ten years as chief pathologist at the 
United States Department of Agriculture's Plum Island Animal Disease 
Center. There I worked for both the Agricultural Research Service and 
the Animal and Plant Health Inspection Service. I specialized in the 
diagnosis and control of several diseases that might be used in an 
agroterror attack, including foot-and-mouth disease, rinderpest, highly 
pathogenic avian influenza, and Newcastle disease. Since leaving the 
USDA in 1996, I took my current post as professor of veterinary 
pathology at the UGA College of Veterinary Medicine, and I continue to 
visit Plum Island frequently and to consult and explore ways of 
defending us against the diseases which can be used for agroterrorism. 
For six years (1998 - 2004), I served on the Secretary of Agriculture's 
Advisory Committee on Foreign Animal and Poultry Diseases, including 
two years as co-chair.
    I have written numerous articles and spoken at dozens of forums 
about the economic impact of a foreign animal disease entering the 
United States and how easy it would be for such an incursion to happen. 
I'm pleased to say that I coined the word "agroterror" in an attempt to 
increase awareness of this problem. The word first appeared in The 
Philadelphia Enquirer in 1999 when reporter Steve Goldstein quoted me 
in stating that agroterror constituted an overlooked threat to the 
United States. With Dr. Lee Myers, I am co-author of a 400-page manual 
entitled Agrosecurity: Protecting America's Food and Agriculture, which 
includes a special section for the State of Georgia.

Lee Myers:
    I am the State Veterinarian and the Assistant Commissioner of 
Animal Industry for the Georgia Department of Agriculture. I have a 
Masters in Public Health and am board certified in the American College 
of Veterinary Preventive Medicine. Over the last decade, I have 
spearheaded various teams to develop state emergency preparedness and 
response plans for foreign animal diseases, such as foot-and-mouth 
disease, bovine spongiform encephalopathy, West Nile virus, and avian 
influenza. Following 9-11, I realized the need to coordinate state 
resources and focus our efforts on agriculture and food defense, and I 
created the Committee on Agriculture and Food Defense. As a result of 
those initiatives, the Director of the Georgia Office of Homeland 
Security appointed me in the spring of 2006 as the inaugural 
representative of agriculture and food defense on the State Homeland 
Security Task Force. I continue to lead the state's strategic plan for 
agroterror and agriculture emergency management, and I serve as the 
subgrantee for the State Homeland Security funding for agriculture and 
food.
    My efforts at the state level have been recognized by national and 
international colleagues. I am President Elect of the U.S. Animal 
Health Association, serve on the National Food and Agriculture Sector 
Government Coordinating Council, and am a member of the Centers for 
Disease Control and Prevention Board of Scientific Counselors. I have 
spoken at numerous national and international conferences about the 
role of states in emergency management operations, and the challenges 
of providing training, protecting critical infrastructure and key 
resources, and building response capability for biological threats.

Introduction
    As stated in the hearing synopsis, "The purpose of this hearing is 
to increase awareness of the relationships between zoonotic diseases, 
bioterrorism and agroterrorism and will focus on prevention and 
preparedness strategies."
    In order to increase awareness of the relationships, some 
definitions of each of the terms are in order:

         Zoonotic disease refers to any disease of humans where the 
        infectious agent was acquired from an animal source.
         Biological terrorism, or bioterrorism, is the use of 
        biological agents or their toxins against humans for the 
        purposes of creating terror or to gain some political, 
        monetary, or social advantage.
         Agroterror is defined as the intentional use of any CBRNE 
        (chemical, biological, radiological, nuclear, or explosive) 
        weapon against the nation's agricultural and food industries, 
        with the purpose of destroying these resources and causing 
        serious economic harm to the nation.
What is the relationship among the three?
    Zoonotic disease is a big umbrella category that includes a huge 
range of infectious agents. These include such headline organisms as 
SARS, Ebola, tularemia and anthrax, but also include many lesser known 
but equally lethal agents such as Listeria, Toxoplasma, E. coli 
O157:H7, Salmonella, Leptospira and alveolar hydatid disease. The whole 
list is extensive, comprising as many as 800 infectious organisms.
    Bioterror is the use of those agents or biological toxins that will 
harm humans and could be released to cause terror. The CDC has 
categorized them according to threat levels, into A, B, and C, for a 
total of 26-30 diseases, depending on how the organisms are clustered. 
These are the diseases that are of primary concern for bioterror 
protection. Almost all of the Category A, B and C agents are zoonotic; 
only a handful are not. So the bioterror agents could be considered a 
subcategory of zoonotic diseases.
    Agroterror involves the use of any kind of threat to the health of 
livestock or adulteration of food that would damage the agriculture 
sector and make our agricultural products unprofitable. Agriculture 
forms the cornerstone of the American economy. A serious terrorist 
event involving agriculture would lead to thousands of bankruptcies and 
hundreds of thousands of people unemployed. It would destroy the health 
of our American economy.
    The World Organization for Animal Health, formerly known as the 
Office of International Epizootics and still recognized by the 
abbreviation OIE, for decades has classified certain livestock diseases 
as "high risk/ high impact". These are diseases that will cause 
"serious socioeconomic consequences," and consist of some of the high 
profile agents, including, among others, foot-and-mouth disease, 
rinderpest, classical swine fever, African swine fever, African horse 
sickness, and Newcastle disease. None of these will be transmitted to 
humans to cause serious disease. Highly pathogenic avian influenza (the 
strains that can be transmitted to humans) and Rift Valley fever are 
also on this list of diseases capable of causing "serious socioeconomic 
impacts" and may be the only two diseases that pose a threat both to 
human health as well as livestock. All are foreign to the United 
States.
    Over the last two decades there has been a plethora of high impact 
animal disease outbreaks that have damaged agricultural sectors in many 
countries. Examples include foot-and-mouth disease in the United 
Kingdom in 2001, classical swine fever in the Netherlands in 1997 and 
highly pathogenic avian influenza in Asia, Africa and Europe in 2004-
2006. In all of these, introduction of the disease was accidental but 
the economic impacts were enormous. Because of globalization and world 
commerce, we are at greater risk than ever of a disease being 
introduced across borders accidentally.
    Terrorists are aware of the ease of creating serious economic harm 
through intentional introduction of these diseases. Compared to 
bioterror, agroterror is appallingly easy. Access to these dangerous 
pathogens is straightforward as they can be obtained from infected 
animals in many parts of the world, and agent dissemination is simple 
and could take place in a variety of venues.
    While the food supply in the United States is one of the safest in 
the world, food contamination and human illness occurs regularly. The 
Centers for Disease Control and Prevention (CDC) estimates that each 
year 76 million people get sick, more than 300,000 are hospitalized, 
and 5,000 Americans die from foodborne illness. Preventing foodborne 
illness and death remains a major public health challenge.
    In 1994, 224,000 people nationwide were sickened with Salmonella 
enteritis from eating a national brand of ice cream. That outbreak is 
estimated to have cost about $18.1 million in medical care and time 
lost from work. In 2002, widely publicized disease outbreaks associated 
with ground beef (E. coli O157:H7) and deli meats (Listeria 
monocytogenes) occurred in over 20 states. None of these outbreaks were 
deliberate.
    The nature of our national systems for food transportation and 
processing facilitate the wide dissemination of large-scale outbreaks. 
Terrorists know how to introduce harmful chemical or biological agents 
into the food supply, with extraordinary results. The Epidemic 
Intelligence Service of the CDC has confirmed bioterrorism or 
intentional contamination of the food supply in California, Michigan, 
New York, New Hampshire, Indiana, Kentucky, Tennessee, Oregon, and 
Texas.
    The complex relationships among the Food and Drug Administration, 
US Department of Agriculture (USDA), Department of Homeland Security 
(DHS) and State and Local food safety agencies add to the challenge of 
protecting our nation's food supply. Activities between these agencies 
should be well coordinated to maximize the utilization of Federal, 
State and Local food safety and security resources, while eliminating 
the duplication of food protection activities. State and local entities 
perform more than 80% of the food safety and security activities in the 
United States and yet receive meager amounts of funding from the 
federal government to protect consumers.
    The key rule in limiting the damage caused by an introduction of a 
high impact animal disease or contamination of the food supply is this: 
the amount of economic damage or human illness depends directly on how 
quickly the disease or contaminated food is detected and contained. 
This is as true for an accidental as for an intentional introduction of 
diseases. If the first instance is recognized, and adequate control 
measure implemented immediately, we will likely circumvent severe 
economic consequences and human illness. However, if the problem is not 
initially recognized, and is allowed to spread to any extent, we will 
face dire consequences in our agriculture industry, our economy and our 
public health. Our best defense against this serious damage is to 
increase awareness to a point where such an incursion is detected as 
early as possible and that an effective state and local response 
capability be developed so that deleterious spread can be effectively 
intercepted through rapid and appropriate actions. This is where state 
and local responses are essential as they can respond much sooner than 
Federal partners.

Agriculture and Food Defense Accomplishments in the State of Georgia
    The Georgia Department of Agriculture has been a leader in 
developing and implementing effective agriculture and food defense 
tools. Fortunately our state leaders, Commissioner of Agriculture Tommy 
Irvin and Governor Sonny Perdue, have included agriculture and food 
defense as a state priority, which allowed the use of Department of 
Homeland Security funding to the states. With support from the 
Governor's office, in 2003, a Committee for Agriculture and Food 
Defense (the Committee) was initiated as a multi-agency, multi-partner 
effort. The Committee functions as a representative group of key 
officials from state and federal government agencies, academic 
institutions, and the private sector.
    The following are the accomplishments in the state of Georgia as a 
result of the Committee's coordinated and integrated efforts.
    Georgia completed its first Agricultural Vulnerability Assessment 
utilizing the State Homeland Security 2003 Assessment and Strategy 
Program, and was the only state to conduct assessments in local 
jurisdictions. Consequently, we were able to secure approximately $2.5M 
in State Homeland Security funding for FY04 and FY05 from the Office of 
Homeland Security (OHS) Georgia Emergency Management Agency (GEMA) to 
accomplish the following:
    We developed a national curriculum on agrosecurity, the first in 
the nation. We created a textbook covering national issues on 
agrosecurity and specific issues pertinent to Georgia. The training 
included website materials, powerpoint instruction, and scenario 
exercises. To date agrosecurity Level I (awareness) training has been 
delivered to 2,500 participants, including emergency managers, law 
enforcement, firefighters, veterinarians, agricultural producers, and 
various state agencies, all across Georgia. Training is now in 
transition to the Georgia OHS for sustainability.Training on the 
Incident Command System (ICS) was delivered to 321 people at ICS 100 
and 200 levels, 50 people at ICS 300 level, and 37 people at ICS 400 
level. Trainees included county extension agents, Georgia Department of 
Agriculture personnel, USDA staff, and private veterinarians.
    Equipment valuing $350,000 was distributed around the state for 
agricultural and food emergency preparedness, including personal 
protective equipment, decontamination materials, and medical 
supplies.We conducted a major food security exercise involving food 
processors, groceries, wholesale suppliers, law enforcement and public 
safety agencies, and various other federal and state regulatory 
agencies. This was co-sponsored with GEMA. The Committee in 
collaboration with the Georgia Division of Public Health co-sponsored 
two day training sessions on Food Supply Defense, From Farm to Fork: 
Integrated Response to Food Supply Emergencies for epidemiologists, 
agriculture sanitarians, and environmental health officers. The 
training addressed food supply contamination investigations, operations 
and procedures in a food supply emergency, and critical communications 
that occur between public health and agriculture employees during a 
food supply emergency.
    We are developing State Agricultural Response Teams (SARTs). There 
are plans for eight SARTs and one is fully developed. All will be 
deployable to any part of Georgia or the Southeast. Agrosecurity Level 
II (performance defensive) training was delivered to 60 SART personnel. 
Agrosecurity Level III (performance offensive) training was delivered 
to 30 SART personnel. National Incident Management System (NIMS), ICS 
300 and 400 trainings were delivered to all SART personnel.
    Geographic Positioning System equipment and handheld computers have 
been delivered to SART personnel. SARTs have received strike packs of 
personal protective equipment. Communications protocols and 
technologies are being defined and organized.
    FY06 State Homeland Security Funding - Agriculture and food defense 
has once again been included in the State Strategic Plan and we are 
hopeful that significant funding will be available through the Georgia 
All Hazards Councils to enhance local SART capabilities. Specifically 
the teams will be taken to a Level III response capability. 
Additionally, a new major effort will be to conduct a comprehensive 
survey of the critical infrastructure and nodes of Georgia agriculture 
and agribusiness industries, to allow us to better focus our planning 
and training.

Summary and Recommendations:
    We are proud of our expertise and activities in preparing our state 
to respond in the event of an attack on our agriculture or food sector. 
Much has been accomplished with few resources and our efforts have been 
recognized nationally and internationally. These successes have been 
dependent on two critical factors. First, our activities are truly 
multi-disciplinary and inclusive, with representation and input from 
all relevant government agencies, academics and the private sector. 
Response will involve all of these partners so it is important to 
engage all in the planning. Second, we are fortunate that our state 
government has been supportive of including defense of agriculture and 
food in the strategic plan, which has allowed us to apply ourselves 
vigorously in the seeking of funds from DHS.
    But there are serious gaps remaining. As members of the House of 
Representatives Committee on Homeland Security, you can help strengthen 
this nation's agriculture and food defense initiatives through action 
on the following:
    Gap Number 1. There is a need for a comprehensive national strategy 
for agriculture and food defense.Homeland Security Presidential 
Directive 9 (HSPD-9), issued in January 2004, created an initial 
roadmap for integration among federal agencies to secure agriculture 
and food. Now a comprehensive strategic plan that includes federal, 
state and local levels is urgently needed. According to HSPD-9, DHS 
isdesignated as the lead partner but this is worrisome as the turnover 
is high and there is limited depth in agriculture and animal health. 
States and local governments need strategic inclusion where HSPD-9 left 
off.
    Solution: Congress should strongly urge that a national strategy 
for agriculture and food defense be developed, as soon as possible. An 
official process that requires the inclusion of states and the private 
sector in order to provide the "seamless system" described in the 
National Strategy for Homeland security and the National Incident 
Management System is recommended.
    Gap Number 2. Food and agriculture defense was not identified by 
DHS as one of the seven national priorities in the FY06 National 
Enhancement Plan, which directs state funding. Only those few state 
administrative agencies that selected food and agriculture defense as 
one of the three allowable electives received funding to enhance 
agroterror and food defense capability. Consequently one state can be 
very well prepared but the state next door may not have listed 
agriculture as a priority and so that leaves both states at risk. 
Funding is not consistent among states--from federal, state or other 
sources.
    Solution: Congress should require DHS to include agriculture and 
food defense as a national priority for the FY07 National Enhancement 
Plan and thereafter.
    Gap Number 3. Funding for states to develop the infrastructure 
necessary for food and agriculture defense is inconsistent and 
meager.USDA has provided the most significant funding, with State 
funding being the second largest source (National Association of State 
Departments of Agriculture survey 2004). In 2002, an Association of 
Food and Drug Officials survey of state activities indicated that more 
than 80% of the food safety and security activities in the United 
States are performed at the state or local levels. Almost a billion 
dollars in federal funds were forwarded in 2003 to the states to 
strengthen preparedness for terrorism response, with less than 5% 
devoted to protecting agriculture and food. Community and state defense 
programs cannot protect the consuming public with the currently 
available funding. A sincere commitment to protect the nation's food 
and agriculture infrastructure must be supported with sustainable 
funding.
    Solution: Congress should provide consistent funding that would 
build infrastructure in each state and encourage regional 
collaborations and sharing of resources.

  STATEMENT OF DR. PAUL WILLIAMS, SPECIAL ASSISTANT, GEORGIA 
                  EMERGENCY MANAGEMENT AGENCY

    Mr. Williams. Mr. Chairman, distinguished members of the 
Committee, as you mentioned, I as a Special Assistant for the 
Georgia Office of Homeland Security, the Georgia Emergency 
Management Agency. I am actually assigned to the Terrorism 
Emergency Response and Preparedness Division.
    A portion of my duties include oversight of the Agriculture 
and Food Defense Initiative, the Medical Surge and Mass 
Prophylaxis Initiative and the Metropolitan Medical Response 
System Initiative. My duties relate to these initiatives as my 
agency is the state administrative agency for the state formula 
grants administered by the Department of Homeland Security 
Grants and Training Directorate. Our function is to assure that 
the monies provided in these grants be solely utilized to 
enhance the state's strategic plan, ensure compliance with the 
National Incident Management System and the National Response 
Plan. Our responsibility is to ensure that Georgia has the 
capacity to respond to the 15 national scenarios and the 
national target capabilities. My responsibilities place me in 
an unusual position to measure preparedness capabilities for 
both human and agricultural biological incidents. It is my 
agency's responsibility to ensure that the two of these do not 
collide.
    You have my written statement in front of you and I have a 
list on page 3 of areas that we consider at the state level 
areas of logjam. There are issues in being able to provide the 
infrastructure under the National Incident Management System 
and the National Response Plan that are areas that we cannot 
fix at the state level. These are issues that require national 
leadership. And out of the list that I have there, there are 
two that jump out at me very specifically, and there are two 
that we have actually been asking for answers for, for almost a 
decade.
    Beginning with the National Animal Health Emergency 
Management Committee that formed in the mid-1990s, one of the 
things that we looked at in looking at how agriculture would be 
rolled up in what was then the old federal response plan, and 
at that time the current method of responding to disasters; we 
saw that we had various issues that were really not very 
consistent. We called at that time, the ``Tale of two 
declarations''; one, the Declaration of Extraordinary Emergency 
by the Secretary of Agriculture and the Declaration of 
Emergency through the Stafford Act. It is completely contrary 
at this point in time to the seamless organization envisioned 
by the National Incident Management System. Without fixing 
that, we cannot have full implementation of that system.
    We are required by September 30 of this year that all 
states be consistent with the National Incident Management 
System to continue to receive federal funding under the DHS 
formula grants. Without fixing that particular issue, I am not 
sure how any state could actually be in full compliance.
    The Stafford Act. The Stafford Act prior to 2000 included 
the word ``pestilence''. By inclusion of that, that allowed the 
infrastructure of response under the Stafford Act to actually 
address some of the issues that have been brought up in this 
discussion today of biological incidents. In 2000 
``pestilence'' was amended out of the Stafford Act, and since 
there has been major confusion of basically who is on first. 
That question has been asked more than once today.
    There are other issues. And I have been very encouraged by 
the questions asked by the Committee today because I think they 
are really quite on target. Mr. Linder and Mr. Scott both 
addressed the issue of prevention. We have been--I guess since 
the 2003 grant process came about, we have been addressing the 
ability to respond. And I think we have to be able to do that 
because we do not have the infrastructure to prevent. we have 
to develop the infrastucture to respond as a short-term goal, 
but our long-term goal has to be prevention because it is a lot 
better to prevent one of these acts than to endure all the 
consequences of responding to it.
    There is really no way--in fact in listening to some of my 
FBI friends in the Joint Terrorism Task Force, they are really 
confounded on a daily basis with information that comes down. 
For example, threats to transportation. Well, what does that 
mean? You cannot protect everything. Is it ground 
transportation? Is it air? Is it rail? What is it?
    The confounding that we have under agriculture, which is 
even a larger system, and protecting that is even a bigger 
challenge, but we have to define it into critical nodes. 
Production, transportation, processing, transportation, 
wholesaling, retailing, transportation. Every one of those 
critical nodes are easily intersected by an act of terrorism. 
And a thorough risk assessment in this state, which we actually 
have written in our 2006 enhancement plan to do such an 
assessment, needs to be done not only in Georgia, but across 
the board, because as we intersect with the infusion centers 
that are required under the DHS programs, as we begin to share 
intelligence, if we do not have this type of infrastructure in 
place, we can do nothing with that intelligence.
    I thank you very much for the opportunity to speak to this 
Committee. I hope you can help us with some of the logjams that 
we have and I will be available for any questions that you have 
of me. Thank you very much.
    Mr. Linder. Thank you, Mr. Williams.
    Mr. Black.
    [The prepared statement of Dr. Paul Williams follows:]

                   Prepared Statement of Dr. Williams

    Mr. Chairman distinguished members of the committee:
    My name is Paul Williams. I am a Special Assistant for the Georgia 
Office of Homeland Security / Georgia Emergency Management Agency, 
Terrorism Emergency Response and Preparedness Division. A portion of my 
duties include oversight of the Agriculture and Food Defense 
Initiative, the Medical Surge and Mass Prophylaxis Initiative and the 
Metropolitan Medical Response System Initiative. My duties relate to 
these initiatives as my agency is the State Administrative Agency for 
the State Formula Grants administered by the Department of Homeland 
Security, Grants and Training Directorate. Our function is to assure 
that moneys provided in these grants be solely utilized to enhance the 
State Strategic Plan, insure compliance with the National Incident 
Management System, and the National Response Plan. Our responsibility 
is to insure that Georgia has the capacity to respond to the fifteen 
National Scenarios and the National Target Capabilities.My 
responsibilities place me in an unusual position to measure the 
preparedness capabilities for both human and agriculture biological 
incidents. It is my agency's responsibility to insure that the two "do 
not collide".
    Our Agriculture and Food Defense Initiative has a primary focus of 
protecting Georgia's agriculture and food infrastructure from 
compromise by administering comprehensive DHS programs of prevention, 
deterrence, response and recovery; at the same time applying the DHS 
overarching principle of "All Hazard Preparedness" to provide for a 
value added deliverable that recognizes finite resources and the need 
for prioritization based on credible threat, vulnerability and risk.
    Georgia's agriculture and food sectors contribute more than $57 
billion, or about 16%, to the state's $350 billion annual economic 
output. The importance of Georgia's agriculture industry to the state 
and nation is underscored by the fact that one in every six Georgians 
works in an agriculturally related sector of the state's economy. 
Protection of Georgia's agriculture is a nationally significant 
advantage. The state ranks first in the United States in four major 
national food commodities, and second and third in at least three other 
national food commodities. A disabling agriculture incident in Georgia 
would affect not only the state but also directly impair the entire 
national market economy. It is recognized that the agriculture and food 
supply can be targets to threaten our nation's economy, but also can be 
used as vehicles for the dissemination of a chemical, biological or 
radiological agent to attack our citizens. Georgia is a major hub in 
our nation's production, processing, marketing, and distribution of 
agriculture and food resources. As such, Georgia represents at least 
three critical nodes subject to compromise in this "most vulnerable" 
area of our nation's Critical Infrastructure and Key Resources.
    To date the State of Georgia has invested in planning, 
organization, equipping, training, and exercising our response to "All 
Hazard" incidents affecting food and agriculture. Specifically, Georgia 
has developed a national curriculum for agrosecurity awareness and 
trained thousands of first responders.
    Enhanced agroterroism defense cuts across DHS programs and national 
priorities originally outlined in National Incident Management System 
and the National Response Plan implementation and expanded regional 
collaboration. Enhancement of agroterror defense also provides a 
synergy of capability in the State's Strategic Plan, the State's 
Emergency Operations Plan, and the other fourteen enhancement 
categories approved in the State's 2006 Enhancement Plan.
    The Homeland Security infrastructure currently under construct in 
Georgia regarding Agroterror and Food Defense is based on the National 
Incident Management System and the National Response Plan, and includes 
appropriate elements of the National Infrastructure Protection plan, 
Homeland Security Presidential Directive 7 and Homeland Security 
Presidential Directive 9.
    Georgia is on target in fulfilling the goals and objectives 
outlined in the 2004 and 2005 grant periods. Requests provided in the 
2006 Enhancement Plan will support completed milestones, which involved 
awareness and response, but will also allow the initiative to begin to 
address the issues of prevention, protection, and recovery.
    The challenges are great. Creating a national culture of "One 
Medicine" rather than the current reality of two medicines fostered by 
regulatory and funding programs will be painful if not impossible 
without National leadership.
    Many of the log jams that we face at the state level cannot be 
fixed at the state level.
    Many of the questions that required answers to effectively 
implement the National Incident Management System and the National 
Response Plan are still unanswered today.
    The confusion created by the "Tale of Two Declarations" ( A 
Declaration of Extraordinary Emergency by the Secretary of Agriculture 
and a Declaration of Emergency thru the Stafford Act) is completely 
contrary to the seamless organization envisioned in the National 
Incident Management System.
    The Stafford Act was amended in 2000 removing the word 
"pestilence". This seemingly harmless deletion has provided major 
confusion when dealing with agriculture biologic incidents where the 
customary first responder community is asked to assist. This confusion 
not only hampers response, but limits buy-in from the first response 
community regarding training and preparedness initiatives. When the 
State Administrative Agency cannot answer the question from the first 
responder community of "who's on first," the entire initiative of 
Agroterror-Food Defense losses its credibility.
    Although well intended, the separate funding streams from The 
Department of Health and Human Services for Public Health and the 
Department of Homeland Security for everybody else tends to place more 
emphasis on program hoops than actually building capacity that supports 
the State's Strategic Plan, and conflicts the need for integrated 
prioritization based upon limited resources. Only with single oversight 
with the mission of building capacity under one strategic plan can we 
be successful. Many of our successes have been because of individuals 
rather than programs. We must do better. We cannot afford not to.
    I thank you for the opportunity to address the committee.We would 
appreciate your help in fixing those things that we cannot.

  STATEMENT OF GARY BLACK, MEMBER, GEORGIA RURAL DEVELOPMENT 
                            COUNCIL

    Mr. Black. Mr. Chairman, members of the Subcommittee, I am 
Gary Black. And for the past 17 years, I have been President of 
the Georgia Agribusiness Council. I really appreciate this 
opportunity to update the Committee members and the public 
regarding industry's efforts to address the topic of today's 
very important meeting. I want to thank all of you for your 
service to our country and welcome home during the month of 
August. But you are about to return and we thank you for your 
service and wish you well as we wrap up this year.
    Mr. Chairman, many of the other speakers have focused on 
the actions and planning of government entities. Government 
agencies should be commended for working to improve 
agricultural and food defense through preventative measures and 
preparing for ways to respond to an attack. However, industry 
has worked on its own to protect consumers from disease and 
attack and I would like to spend my time discussing the 
progress that we have made in the agribusiness industry and the 
food industry.
    The threat of the Asian strain of H5N1 highly pathogenic 
avian influenza has highlighted the need for proactive action 
by industry. The poultry industry has responded by spending a 
tremendous amount of time and resources in the area of 
prevention. They know the importance of biosecurity and the 
need for physical barriers to prevent infections. Without 
government regulation, the poultry industry implemented strict 
biosecurity measures, such as limited access to farms and 
policies encouraging practices such as wearing plastic boot 
covers and using disinfectant foot baths to prevent infections. 
Through a federal grant, the University of Georgia will be 
conducting a series of farmer meetings starting this fall, with 
additional assistance from industry, to emphasize the 
importance of biosecurity and preventative measures. These 
meetings will reach each of the nearly 4000 poultry growers in 
the state of Georgia.
    Additionally, the poultry industry voluntarily established 
a surveillance program prior to federal and state requirements. 
The program calls for participating companies to test flocks 
while they are still on the farm. If any flock tests positive 
for H5 or H7 types of avian influenza, the company will destroy 
the flock before it is introduced into the food chain.
    Many of us have seen the impact avian influenza has had on 
other areas of the world. It is important to remember that in 
the United States, the modern system of production employed by 
the poultry industry means that chickens and turkeys are kept 
in enclosed areas from the time they are hatched until the time 
they enter the processing plant. They have no contact with wild 
birds.
    The poultry industry has developed plans for response and 
eradication of avian influenza. Many companies have identified 
the personnel that would be involved in a response and these 
individuals are receiving training and companies are 
stockpiling equipment that would be needed to supplement 
federal and state resources. They are working with state and 
federal partners in the planning process and taking advantage 
of joint training exercises with federal and state officials.
    Even in the presence of a high degree of farm production 
security measures and poultry that is voluntarily tested and 
proven free of harmful agents as we have discussed here today, 
there does exist a certain level of risk. It takes years of 
work, research and investment to build a food industry that is 
trusted by consumers. An attack on our food supply may have as 
its goal the imposition of a financial harm rather than an 
attack on public health and safety. And we have discussed that 
in the last few minutes.
    It is incumbent upon leaders in the state and federal 
government to have an effective strategy to provide the public 
with timely and accurate information in case of a food and 
agriculture related emergency so that this hard-earned and 
well-deserved consumer confidence is not lost. Because of these 
risks, it is certainly appropriate for industry to help lead 
the way to develop these disease prevention and response 
programs. I urge government agencies engaged in these 
activities to work with industry representatives and leaders to 
provide the most effective programs for food safety and disease 
prevention possible.
    Thank you, Mr. Chairman, for the opportunity to share these 
brief remarks with the Committee today. The future of our 
economy and public health in America depend upon industry and 
government entities working together. A safe supply, 
Congressman Norwood, of domestically produced food is a 
national security issue of utmost importance. Could not agree 
more. And I hope that in the future I can make a positive 
contribution toward keeping the communication lines open to 
ensure the safety of our food supply in Georgia.
    Thank you, Mr. Chairman.
    Mr. Linder. Thank you, Mr. Black.
    Dr. Brown, I have believed for some time that not on 
agriculture but on biological or nuclear attack, the first 
person to show up is going to be a fireman with a brand new 
truck and haz-mat suit and he is not going to know what the 
hell to do.
    Would you think that it would be wise for the grants that 
we give to communities to be tied to training?
    Dr. Brown. Yes, absolutely. And our training went out to 
firefighters, law enforcement officials, emergency management 
people, producers, veterinarians. It was very multi-
disciplinary training. And part of the purpose of that was to 
get all the people in the same room so that they all know each 
other so that when they have an emergency, they are not, as 
they say, exchanging business cards over the dead bodies.
    Mr. Linder. That is a little bit rough there.
    [Laughter.]
    Mr. Linder. Thank you. We have seen estimates that--I do 
not believe we have had foot and mouth disease in this country 
since 1929 and virtually every cow in Afghanistan has foot and 
mouth disease. It would be very easy to wipe a cloth over that 
nose and put it in a vial and get in a plane and bring it to 
north Texas and infect millions and millions and millions of 
cows and it would be a $100 billion event.
    Why have we not talked about that?
    Dr. Brown. Talked about it coming from an endemic country 
specifically, or--
    Mr. Linder. Coming from a terrorist who has access to these 
cattle in Afghanistan.
    Dr. Brown. You know, I am not sure we have not talked about 
it. Because this is something that I hear people in USDA talk 
about quite a bit. And at Plum Island, the Department of 
Homeland Security was putting together a forensics unit to do 
molecular epidemiology of strains around the world. I know 
unfortunately the person who was heading that unit just moved 
to USDA, so that unit is temporarily inactive.
    Mr. Linder. Dr. Williams, the name of this subcommittee is 
the Subcommittee to Prevent Nuclear and Biological Attack. And 
I was struck in talking to Dr. Gerberding at CDC some years ago 
that they never thought--they respond, and they are just now 
thinking about prevention. And prevention requires intelligence 
which we spend about two percent of the homeland security 
budget on, we spend one-eighth of it on airlines.
    But is there any intersection between the biologic 
community and the intelligence community? The biologic 
community is an academic community with wide open borders 
inviting all kinds of foreigners in to share their research and 
the CIA is just exactly the opposite.
    How do you create an intersection between those two 
communities?
    Mr. Williams. Well, it is beginning to happen. I am struck 
by, as we talk about all these issues, of where we were in 2003 
when we started all of these initiatives. We started with 
awareness level which many people have discussed already. This 
is what is called Level 1 response training, just to make 
people aware of what it is we are talking about. And we did 
that with the entire emergency response community, including 
firefighters and others.
    Level 2 response capability is what we are starting now and 
we have done that because of current events with avian 
influenza. We have stood up one of our teams to full 
operational 4 level training, to be able to respond to pandemic 
influenza and avian influenza.
    So sometimes some of these projects move ahead a little 
faster than what you would like to on a nice calm planning day.
    The intelligence piece is really important and it is 
beginning to happen from an agricultural standpoint actually 
this year. In fact, in our 2005 enhancement budget, we have 
written into the plan for an agricultural intelligence analyst 
that will be embedded in our joint information sharing and 
analysis center which is part, you know, of the Joint Terrorism 
Task Force. That person will be able to look at information 
that is coming through the intelligence communities and make 
some sense out of it and have a matrix as to which part of the 
agricultural sector needs to be notified. But we are still 
crawling on that part but, you know, our short-term goal is to 
add that analyst and to begin to be active with the Joint 
Terrorism Task Force. And that is happening in Georgia. What is 
happening elsewhere, I do not have a clue.
    Mr. Linder. Mr. Black, are we getting anywhere close to 
having farmers come in and sit down and talk about training 
issues?
    Mr. Black. Yes, sir, absolutely. I think there is a great 
hunger for it. They recognize, as has been said in two or three 
discussions this afternoon, the economics, their livelihood, 
they understand their bank note and they understand and their 
banker understands their bank note and that rural economy 
understands that they are playing in a global marketplace that 
has some global risks. So yes, sir, I think we are going to see 
some dramatic--
    And I could not agree more as far as the data that is in 
our ag security or our food defense handbook. It has been some 
tremendous training that has taken place and hopefully there 
will be more. And I would like to also say, Congressman, that I 
would love to see us do more table top exercises on 
preparedness. That continued training is very important at all 
levels in this particular arena. I have been involved in some 
of that and would like to see more of it take place for some of 
our homeland security dollars.
    Mr. Linder. Thank you. We did have a table top exercise 
sometime ago on foot and mouth disease. I did not realize we 
did not have enough bullets in America to take care of the 
problem.
    Mr. Scott.
    Mr. Scott. Thank you very much, Mr. Chairman.
    Ms. Brown, I really think you have nailed it. You really 
have nailed the essence of why we are here, the importance of 
this issue and our failure up to this point.
    I am very worried about our food chain. I think that is our 
most vulnerable point. I have tried on the Agriculture 
Committee since I have been there to raise this level up 
higher. I find myself going to be in a much better position 
when we go back because I will be Ranking Member of the 
Subcommittee on Horticulture Crops and Livestock, and this is 
going to be our number one issue that we are going to do.
    I went down to the University of Georgia's Experimental 
Station down in Griffin where the world needs to know and does 
not know that we have a first class food safety program already 
under way. Clearly, we are trying to get more dollars down 
there to do that.
    You mentioned several areas. One, we need a national 
strategy, do not have it. Part of that is because of lack of 
funding. You also mentioned certain gaps. Could you address 
those and give us examples of where we are weak on the national 
strategy, where we need to go and what these gaps are?
    Dr. Brown. Yes, thank you.
    I believe that the biggest gap is the partnering with the 
states and local governments and the other large gap is that 
agriculture has to be included in the national plan.
    DHS is in the driver's seat for all of this. DHS is very--
does not have a lot of depth in agriculture expertise. There 
has been quite a bit of turnover with the agriculture experts 
within DHS. It is a growing organization I understand, but 
there is not enough in there to make the impact that the 
agriculture community needs to see in a plan.
    Mr. Scott. Do you think then that it needs to be out of the 
Department of Homeland Security and maybe in the Agriculture 
Department?
    Dr. Brown. Well, it always was in the Agriculture 
Department but with HSPD-9, it became clear that DHS would be 
the lead. Somebody has to be the lead. We just need a few good 
people to lead.
    Mr. Scott. What I am hearing you say is do you think that 
that leadership could come better if we reordered that into the 
Agriculture Department instead of Homeland Security?
    Dr. Brown. You know, I am not sure I could answer that. In 
a terrorism event--in an incidental incursion, I can see how 
USDA would be the lead, but in an intentional event, I do not 
see how we could not have DHS front and center.
    Mr. Scott. Okay. Now let me go to one other point. In your 
testimony, you mentioned that the CDC had confirmed 
contamination of the food supply, intentional contamination.
    Dr. Brown. Yes, there have been many--yes, that is true.
    Mr. Scott. Can you give us some examples of that?
    Dr. Brown. No. I do not believe that information is 
unclassified. I think just the fact that there has been 
intentional.
    Mr. Scott. Well, you know that they are there, you know 
that they are intentional, you care not to give us examples 
right now.
    Mr. Linder. She cannot give us examples.
    Mr. Scott. That is fine, I understand that. I appreciate 
that too.
    Dr. Brown. And it may be FDA also.
    Mr. Scott. Well, let me ask you this then. Can you give us 
in your opinion whether we have put in practices in place as a 
result of that, have we done something about it? You may not 
tell us what it is.
    Dr. Brown. Yes.
    Mr. Scott. But we have done something to--
    Dr. Brown. Yes, there are many more safeguards in place.
    Mr. Scott. Okay, now finally I wanted to ask you, how close 
would you say we are to an effective national strategy, or are 
we close at all?
    Dr. Brown. I would say we are in the late stages--we are in 
the third trimester.
    [Laughter.]
    Mr. Scott. Okay, let me go to you, Dr. Williams, for a 
moment, if I may. In your--thank you, Ms. Brown. In your 
testimony, you raise some important issues which you refer to 
as the ``Tale of Two Declarations'' regarding the Declaration 
of Extraordinary Emergency and the Stafford Act Declaration. We 
have been concerned about similar situations in this 
connection.
    Can you please elaborate on this point and give us a 
recommendation on how we might fix this problem?
    Mr. Williams. Well, Dr. Brown alluded to this about where a 
change in who is in charge occurred in one of these types of 
incidents. And every day--probably there is something like 700 
foreign animal disease investigations in the United States 
every year. And this is part of just doing business in USDA and 
state departments of agriculture and so forth.
    When they find something that requires a response, if it is 
something that can be done, and it is not a terrorism event, it 
is something that can be handled within USDA, it is handled 
through a Secretary's Declaration or Extraordinary Declaration 
of Emergency. It is usually handled by USDA.
    When an incident, you know, reaches a level where USDA 
needs other resources outside of USDA, whether it be at the 
federal level or state level, it has reached a point to where 
we have to initiate the National Incident Management System. 
And when the National Incident Management System is initiated, 
DHS is basically in charge. In charge is a little strange. A 
lot of people do not understand exactly emergency management, 
some of the terms about who is on first type of situation.
    I heard an analogy of emergency management playing the role 
of an air traffic controller. When one of these events requires 
initiation of the 15 emergency support functions that are part 
of the National Response Plan, it is our job as far as 
emergency managers to make sure that each of those ESFs can 
land and take off without crashing into the other. It can get 
refueled, it can get, you know, recrewed, so forth and so on. 
That is our role. Now we are in charge of the overall incident, 
but we do not tell each of those agencies how to fly their 
airplane. And so that is in a nutshell what we are talking 
about here as far as who is in charge.
    Going back to the original question of, you know, what do 
we do about the issue of the declaration of an emergency 
through the Secretary. We should really probably do nothing 
with that. It has served us well for over 50 years. It is a 
good method of handling things. But we have to, and it is going 
to require probably an amendment of the Stafford Act, to put 
``pestilence'' back into the Stafford Act to allow that 
structure, that is the other part of how this country responds 
to disasters, to be able to support seamlessly those events 
that have overwhelmed Agriculture.
    And so I hope I have not confused the issue there, but it 
is--
    Mr. Scott. You cleared it up a bit.
    May I ask--I did not know it was going to take so long, Mr. 
Chairman, may I ask Mr. Black one question?
    Mr. Linder. Yes.
    Mr. Scott. I appreciate your kindness.
    Mr. Black, you are with the Georgia Rural Development 
Council, is that correct?
    Mr. Black. I serve on the Georgia Rural Development Council 
now; yes, sir.
    Mr. Scott. Could you just share with us for the benefit of 
the audience and myself what you actually do?
    Mr. Black. Well, the Georgia--it is actually an appointed--
it is an overall looking at the rural economy, a council that 
Governor Perdue has and it has a lot of agricultural 
involvement looking at--I have served as Chairman of the Rural 
Economic Development Subcommittee of the Council; yes, sir.
    Mr. Scott. You are there where the real farming is going 
on.
    Mr. Black. Yes, sir, correct.
    Mr. Scott. Let me ask you your coordination with the state 
Office of Homeland Security.
    Mr. Black. Yes, sir.
    Mr. Scott. Do you receive advisories and actions that you 
can take to protect the livestock or crops from intentionally 
or naturally occurring diseases?
    Mr. Black. There has been a tremendous amount of growth in 
that information and how that has been disseminated into the 
agricultural community. I have served on the Ag Terrorism Task 
Force and have had individuals from the Georgia Agribusiness 
Council, my former employer, actually helping draft the plan 
that is here. So we have been integrated in that initiative 
since day one.
    Mr. Scott. So you can report any instances that anything 
happens to these agencies.
    Mr. Black. Yes, sir, there is a channel of communication; 
yes, sir.
    Mr. Scott. And you have done so. And how responsive have 
they been?
    Mr. Black. Well, I do not know that I have done so because 
I have not seen, as far as the initiation of a terrorist attack 
or anything actual to report.
    Mr. Scott. I guess what I am trying to get at is you are 
the very local level, is what I was trying to point out. You 
are out there where the rubber meets the road.
    Mr. Black. Yes, sir.
    Mr. Scott. You are out there with the farms.
    Mr. Black. Yes, sir.
    Mr. Scott. And up here you have got a bureaucracy going up 
the line. I was just trying to find--
    Mr. Black. Can they communicate?
    Mr. Scott. Yes, that there is good communication. There is 
a system there. We are just trying to find a good national 
model and make sure that if something happens at a specific 
farm, and you are right there.
    Mr. Black. Yes, sir.
    Mr. Scott. I mean how quickly could you get up, is there a 
line of communication?
    Mr. Black. Congressman, one area to address that is the 
County Extension Service or the Cooperative Extension Service 
and County Agents have been engaged in these trainings 
throughout the state. And certainly from a farmer's standpoint, 
his first reliance on information and communication up the 
chain is going to be through his County Agent. They have been 
actively involved and I think that has been a good thing.
    Mr. Linder. The time of the gentleman has expired twice.
    Mr. Scott. And I appreciate your kindness, sir, thank you.
    Mr. Linder. The Congressman from Evans.
    Dr. Norwood. Thank you, Mr. Chairman.
    Mr. Black, try to be brief.
    Mr. Black. Yes, sir.
    Dr. Norwood. If we have an outbreak in Georgia, foot and 
mouth or avian flu, tell me briefly what do we do?
    Mr. Black. Well, there has been--the terms incidental 
versus an intentional.
    Dr. Norwood. Either way.
    Mr. Black. Those kinds of things, who sets a perimeter, who 
gets in charge. If it is intentional, certainly FBI and Paul 
was mentioning that, they come in charge and I believe our 
Georgia Department of Agriculture and other professionals serve 
as a resource.
    Dr. Norwood. How long would it take for us to determine if 
it was intentional or terrorism?
    Mr. Black. That, sir, I do not know the particular answer 
to, but I can find that out for you.
    Dr. Norwood. Could it take a long time?
    Mr. Black. It is certainly within--let us talk about AI 
real quickly. Foot and mouth is another thing. In AI, we have 
tremendous resources in this poultry industry. That test is 
immediate.
    Dr. Norwood. Let us just say it is terrorism, what do we do 
in Georgia?
    Mr. Black. What do we do? Well, companies will begin 
depopulation, working with the Department of Agriculture to 
secure that perimeter, so that it does not expand.
    Dr. Norwood. So the Department of Agriculture says you have 
to isolate your birds or you have to start killing your birds.
    Mr. Black. You isolate and depopulate; yes, sir, you kill. 
There will be some destroyed--those flocks will be destroyed.
    Dr. Norwood. Who tells them to kill?
    Mr. Black. Well, I am going to tell you, the industry will 
step up and do that because it is their--they are protecting 
their own interests in their economy, but certainly it is in 
cooperation with the Department.
    Dr. Norwood. So it does not really matter what the feds 
say, we are just going to get about taking care of business in 
Georgia?
    Mr. Black. We are doing some of that, but certainly USDA is 
a player at that table. And when you get into all the animal 
health and the plant health--animal health protection, that is 
very important and those USDA players are at the table.
    Dr. Norwood. So you think that will be seamless without a 
problem? Now remember, terrorism. So now Homeland Security is 
in it who does not have anybody over there who knows anything 
about agriculture. Now what are we going to do? So says Dr. 
Brown, I do not know that.
    Mr. Black. Those bridges need to be continually built and 
resources put in place. I mentioned quite a bit about improving 
communication and having those response plans, having people 
well trained, so that if something does happen, that we have 
actually gone through some exercises so that we will know what 
to do.
    Dr. Norwood. You were talking about industry is on their 
own and perhaps in conjunction with the University of Georgia 
training and planning. Is that going on out there now?
    Mr. Black. That is going on right now. And I mentioned 
there will be another series this fall with producers and 
again, those will be more prevention issues.
    Dr. Norwood. That falls under the heading of prevention, 
Dr. Williams, does it not?
    Mr. Williams. Yes, sir.
    Dr. Norwood. Well, who pays for that?
    Mr. Black. That is how we are investing some of our 
Homeland Security dollars that come back for agriculture.
    Dr. Norwood. So industry is not paying for it itself to 
protect itself?
    Mr. Black. Industry has resources at the table every time 
they have a training, every time, they dedicate those resources 
within their company to train their employees, absolutely. They 
have extensive amount of resources dedicated to protecting the 
public and also protecting the economy.
    Dr. Norwood. What I am trying to get at here is that when 
you look at some things with Homeland Security and Dr. Brown 
says well, the states need to solve it, Dr. Williams says no, 
the feds have got to do more. There is a lot of confusion in 
all that. I am interested in--as you know, being from Commerce, 
Georgia, how many chickens are in my district--I am interested 
in us knowing what to do and not worrying about what they are 
saying in Homeland Security or the Department of Agriculture. 
We need to know in Georgia what to do with this problem. Are we 
ready?
    Mr. Black. We are rapidly approaching. I am going to go to 
the third trimester, that was a pretty good answer. When we 
look at our avian response plan and that draft plan that is 
under way, there has been tremendous progress. I am satisfied 
that industry understands its assets and are doing their dead 
level best to protect their assets and to protect that rural 
economy and in turn, protect the public health, yes, sir.
    Dr. Norwood. Dr. Williams, I am focusing on that rather 
than prevention, though I am a big prevention person, because I 
do not think you can prevent. I do not think any of us are 
smart enough, big enough, have a way to do it. It does not take 
but one person with a way to get into the United States and you 
can certainly do that very easily on the southern border taking 
one handkerchief under one cow in Afghanistan. So I am going on 
the basis that prevention is something we need to work hard at, 
but if we think we are going to prevent it if it really comes 
about, we are wrong. We just cannot get that done.
    Now Dr. Brown, I am about to run out of time, but I tend to 
agree with your statement and I will leave it there, that 
states need to handle this or we need to handle it. I like the 
idea of some coordination with the U.S. Department of 
Agriculture but it just scares the bejesus out of me to think 
that Homeland Security could get in the middle of it.
    Dr. Brown. May I add one thing, to tell the difference 
between an intentional and an accidental incursion may take 
months of molecular epidemiology work.
    Dr. Norwood. Right. So we do not need to worry about which 
it is, we need to respond. We will figure out later. But what 
will Homeland Security do then? Well I think we need to worry 
about that.
    Thank you, Mr. Chairman.
    Mr. Linder. Thank you. The gentleman from Athens wish to 
inquire?
    Mr. Barrow. Yes, sir, Mr. Chairman, thank you.
    Mr. Black, your involvement in the ag industry and your 
involvement with the industry's interaction with state 
government makes you a particularly knowledgeable source in the 
area of concern that I have got. I am going to throw you a 
couple of softballs.
    I want to know what it is that we are doing that is not 
worth doing in light of what we could be doing with the same 
resources; and what is that you think we are not doing that we 
should be doing. So let us focus first on the first of those 
two questions. What, either in state homeland defense or in 
state ag, what are we doing that is not worth doing in light of 
what we could be doing with the same resources? Got any ideas 
along those lines?
    Mr. Black. Congressman, that is a good question. When we--
if I can skip to your second question first.
    Mr. Barrow. I am not going to forget the first one though.
    Mr. Black. We will come back to it. There is a real 
important point to make on the second one.
    I think in order for us to protect our food supply, to be 
able to respond with the ag industry and work hand in hand, we 
must always have the best trained, well-equipped, properly 
motivated and respected front line workforce with our state 
Department of Agriculture, with USDA and all the entities 
involved.
    Mr. Barrow. Do you think we have that?
    Mr. Black. I think that we definitely need some resources 
in that area. I think that there is a motivation factor that 
when people are motivated in that workforce, they are better 
prepared and actually come to work excited about their job. 
There are some issues with regard to how our front line people 
in the State of Georgia in regards to pay scales and others 
that I think we do need to improve and we need to work together 
to meet those objectives.
    Mr. Barrow. Where do the resources come from?
    Mr. Black. Those are state resources; yes, sir. And I would 
suggest, maybe not familiar with as much of those particular 
things with USDA, but I am sure within all other areas, there 
is a Farm Service Agency with in USDA which you are familiar 
with, many of those things all track all across agriculture. 
And I think we need to improve our resources there.
    Mr. Barrow. Other than putting your finger on resources, 
which they are always scarce, there is always a scarcity of 
resources, that leads to the first question. Is there anything 
that you regard as a misallocation of the existing resources? 
Is there anything that we should not be doing that we are 
doing, that we should not be doing in light of what we could be 
doing with the same resources?
    Mr. Black. Congressman, I will answer it this way; one 
thing we must always do is be sure that when we communicate a 
threat or when we have a news release, when we have an 
incident, I think we have always got to continue to improve how 
we communicate to the public. And how we communicate within the 
agricultural arena, how we communicate with industry. Because 
one misstep, one misword--and that comes back to making sure we 
always have properly trained employees and making sure that we 
are engaged at every level working with commodity groups 
throughout the state. I think that is another improvement we 
can make.
    Mr. Barrow. I appreciate that. Back to my question though, 
is there anything that we are spending our resources on that 
you think we should not be? Is there anything you would 
cannibalize or convert to other uses that we are currently 
utilizing now. In other words, within the realm of existing 
resources, are the proper priorities reflected in the limited 
resources we have got, is what I am getting at.
    Mr. Black. I would say those priorities--when we look at 
the first year priorities, there is one element that I am 
reminded of. I remember we bought some 10-gallon--some five-
gallon buckets for $10.00 apiece and I hope that does not go 
back--these were for disinfection and some particular areas in 
that first allocation of resources. Certainly there is some 
basic equipment we need, we need to always make sure that we 
are getting an efficient use of our purchases.
    Mr. Barrow. I will grant you. But in terms of programs for 
which certain resources are dedicated or committed, are there 
any programs that you would sacrifice in light of being able to 
free up those resources?
    Mr. Black. I am not aware of any right now; no, sir.
    Mr. Barrow. Okay, now shifting now from your area to the 
area that Dr. Brown zeroed in on. I want to commend Dr. Brown's 
statement for folks who want to put together a good statement, 
because you identified--you gave us enough background 
information to understand what you are talking about, but you 
pinpointed areas where you thought we had problems and some of 
the remedies, some of the things we need to fix.
    And I want to zero in on one of those, because I sat here 
and I heard Dr. Runge say that ag inspection and agroterrorism 
in general are one of Secretary Chertoff's number one 
priorities. And yet I find from your testimony that the 
priorities, the top seven priorities established by Department 
of Homeland Security do not include agroterrorism. So he says 
it is one of the top, it clearly is not one of the top seven.
    And you identify a clear policy choice that we need to 
make, to make this either one of the top seven or to extend the 
group of areas that all the states can participate in from 
seven to eight.
    Can you think of anything in the top seven that you would 
shove aside to make room for agroterrorism if you were setting 
the priorities? Or does it have to go from seven to eight? Do 
you think all of those seven are properly rated or ranked 
higher than agroterrorism? Or do you think that agroterrorism 
belongs in the top seven, maybe the top three?
    Dr. Brown. It definitely needs to be near the top.
    Mr. Barrow. Right now it is not in DHS's top seven and it 
is optional for the states to try and use some of their money 
on a haphazard, ad hoc state by state basis. When you are 
dealing with borders and an economy and stuff that moves across 
borders that are even more porous, by design, than our already 
too porous international borders. I mean to have Georgia taking 
the lead in some areas, as we have heard some testimony on, and 
then have Alabama and South Carolina not able to or not willing 
to--probably not able to--it is amazing that we are that wide 
open. You think it definitely ought to be at the top, would you 
say the top two or three?
    Dr. Brown. Yes.
    Mr. Barrow. All right, thank you.
    Mr. Linder. The time of the gentleman has expired.
    Mr. Black. Congressman, could I add one more thing?
    Mr. Linder. Sure.
    Mr. Black. This may be an extra resource that we should put 
on the table. And I am going to go back to my little experience 
in the fertilizer industry. Right after 1993, in that first 
terroristic attack, industry stepped in there to begin security 
vulnerability training for fertilizer dealers. Asked them to 
know their customer, better recordkeeping, better security at 
their facilities.
    That might be one additional area where we could invest 
some resources in working with smaller food plants. Because I 
have talked a lot about industry, talked about a lot of the 
poultry industry, all of those are big companies. But certainly 
we do have some family-owned industries. Georgia is a pretty 
good magnet for food processing and I have worked a little bit 
in that arena with an initiative at the state level, some state 
research dollars. But security vulnerability training for some 
smaller food plants might be a good place for us to look to 
dedicate resources in the future.
    Thank you for letting me add that.
    Mr. Linder. Thank you all. I appreciate your time this 
afternoon.
    I would like to point out, Dr. Brown, that of all the 
expert testimony we have had today, nobody has mentioned bring 
back DDT. Why is that?
    Dr. Brown. Bringing back DDT.
    Mr. Linder. Yeah. It was eliminated on a theory and it is 
being used really widely in Africa right now to eliminate a lot 
of diseases. Why do experts like you not say maybe it is time 
to bring it back?
    Dr. Brown. I will have to look into that.
    Mr. Barrow. Because it is going to get into mothers' milk 
eventually, that is why. We learned that the hard way.
    Mr. Linder. Thank you all.
    [Whereupon, at 3:08 p.m., the Subcommittee was adjourned.]


                                 <all>

</pre></body></html>
